<html>
<title> - PHOSPHOGYPSUM: SHOULD WE JUST LET IT GO TO WASTE? PARTS 1 AND 2</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
    PHOSPHOGYPSUM: SHOULD WE JUST LET IT GO TO WASTE? PARTS 1 AND 2

=======================================================================

                                HEARINGS

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2004

                               __________

                           Serial No. 108-191

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-739                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
            Ursula Wojciechowski, Professional Staff Member
                         Juliana French, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 15, 2004...................................     1
Statement of:
    Cotsworth, Elizabeth, Director, Office of Radiation and 
      Indoor Air, Office of Air and Radiation, U.S. Environmental 
      Protection Agency; Harlan Keaton, environmental 
      administrator, Bureau of Radiation Control, Florida 
      Department of Health; and Dick Eckenrod, executive 
      director, Tampa Bay Estuary................................    70
    Lloyd, G. Michael, Jr., research director, chemical 
      processing, Florida Institute of Phosphate Research; Dr. 
      Malcolm E. Sumner, agricultural and environmental 
      consultant, Regents' professor emeritus, University of 
      Georgia; Dr. Doug Chambers, executive vice president, 
      director of radioactivity and risk studies, Senes 
      Consultants Limited; and Dr. Chih-Shin Shieh, environmental 
      consultant, CS Environmental Solutions.....................     6
Letters, statements, etc., submitted for the record by:
    Chambers, Dr. Doug, executive vice president, director of 
      radioactivity and risk studies, Senes Consultants Limited, 
      prepared statement of......................................    25
    Cotsworth, Elizabeth, Director, Office of Radiation and 
      Indoor Air, Office of Air and Radiation, U.S. Environmental 
      Protection Agency, prepared statement of...................    73
    Eckenrod, Dick, executive director, Tampa Bay Estuary, 
      prepared statement of......................................    84
    Keaton, Harlan, environmental administrator, Bureau of 
      Radiation Control, Florida Department of Health, prepared 
      statement of...............................................    79
    Lloyd, G. Michael, Jr., research director, chemical 
      processing, Florida Institute of Phosphate Research, 
      prepared statement of......................................     8
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4
    Shieh, Dr. Chih-Shin, environmental consultant, CS 
      Environmental Solutions, prepared statement of.............    46
    Sumner, Dr. Malcolm E., agricultural and environmental 
      consultant, Regents' professor emeritus, University of 
      Georgia, prepared statement of.............................    16


        PHOSPHOGYPSUM: SHOULD WE JUST LET IT GO TO WASTE? PART 1

                              ----------                              


                         MONDAY, MARCH 15, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                        Bartow, FL.
    The subcommittee met, pursuant to notice, at 9:33 a.m., in 
the West Wing, Southwest Florida Water Management District 
Headquarters, 170 Century Drive, Bartow, FL, Hon. Adam H. 
Putnam (chairman of the subcommittee) presiding.
    Present: Representative Putnam.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Ursula Wojciechowski, professional staff member; 
Juliana French, clerk; and Matthew Joyner, district director.
    Mr. Putnam. A quorum being present, this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order.
    Good morning, and welcome everyone to the subcommittee's 
first hearing on phosphogypsum. Today's hearing is 
appropriately entitled, ``Phosphogypsum: Should We Just Let It 
Go To Waste?''
    I want to thank the community for their interest in this 
issue. As indicated by the wonderful turnout that we have 
today, this is an issue that is very important, not just to 
Polk County but to all of central Florida and even beyond that.
    Currently there are about 1 billion tons of phosphogypsum 
stored in 24 stacks in Florida, 21 of those stacks here in 
central Florida. Thirty million new tons of phosphogypsum are 
produced every year, and we meet today in the shadows of one of 
those stacks, one of these gyp stacks, as the locals call them, 
here in the Southwest Florida Water Management District 
building.
    Phosphogypsum is a byproduct of the chemical processing of 
phosphate rock mined here in Florida. In 1989, the U.S. 
Environmental Protection Agency promulgated a rule determining 
that the commercial product of phosphogypsum was a waste 
product and banned its use for any purpose whatsoever. From 
that point on, the phosphogypsum has been accumulating all over 
the State.
    The possibility of a catastrophic spill in Manatee County 
last year raised local and Federal concerns. In 2001 the 
Mulberry Corp., the owner of the Piney Point Phosphates went 
bankrupt leaving a plant with unattended stacks of 
phosphogypsum. Since then, the State of Florida has kept the 
electricity going at the plant and monitored water levels in 
the phosphogypsum stacks. Last year, the Florida Department of 
Environmental Protection was granted Federal permission to 
discharge more than 500 million gallons of treated wastewater 
from the Piney Point Plant into Bishop's Harbor in Tampa Bay. 
EPA and the Department of Environmental Protection insisted 
that it would not be harmful to marine life and others 
contended that the solution, while the lesser of two evils, 
would be less environmentally damaging and more economically 
sound than a spill. That discharge was estimated to span 19,500 
square miles and cost $10 million. Although that cost will be 
covered by a trust fund that phosphate companies pay for 
environmental restoration, Florida State government has spent 
$40 million so far to maintain Mulberry's abandoned plants at 
Piney Point and in Polk County. The expected maintenance and 
closing costs will total $170 million which will fully deplete 
the trust fund.
    Scientific research conducted and the results found by 
various entities support a position that phosphogypsum is not a 
waste but a potentially valuable commercial product. Conclusive 
evidence by independent researchers and research councils 
challenge the claims that use of the product is harmful and 
suggests that specific applications be reviewed. It can be 
environmentally safe and economically attractive to use 
phosphogypsum in a variety of ways serving industry and 
potentially benefiting the taxpayer. Considering that the 
environmental dangers of stacking phosphogypsum to the unlikely 
risks associated with the use of it outweigh the risks of 
storing it as a waste product. We will examine this question 
and the environmentally safe, potential uses for phosphogypsum 
this morning.
    This morning's hearing will immediately be followed by our 
second hearing that will focus on understanding the purported 
risks of phosphogypsum as determined by the Environmental 
Protection Agency. Representatives from Florida's State and 
local government will share their thoughts on the risks and 
uses of phosphogypsum. And finally we will hear the concerns of 
a dedicated environmentalist involved with the Tampa Bay 
estuary program.
    Ordinarily I would yield to the ranking member of the 
subcommittee, Mr. Clay from Missouri, for any opening remarks; 
however, given that this is a field hearing and not in 
Washington, we will immediately proceed to witnesses for their 
testimony.
    As is the custom for the Government Reform Committee, we 
swear in our witnesses, so I would ask the first four panelists 
and anyone joining you who will provide supporting information 
to our questions to please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Putnam. I note for the record that all the witnesses 
respond in the affirmative.
    We will proceed to our first witness, Mr. Michael Lloyd. 
Mr. Lloyd is the research director of chemical processing at 
the Florida Institute of Phosphate Research. He received his 
chemical engineering degree in 1950 from Clemson University. 
After graduation he worked in the Chemical Corp. for the U.S. 
Army and Southern Cotton Oil Co. Before joining the Florida 
Institute of Phosphate Research in 1982 Mr. Lloyd worked 30 
years for Agrico Chemical Co. serving many roles from foreman 
to project coordinator and director. He participates in the 
American Institute of Chemical Engineers and the American 
Chemical Society. Mr. Lloyd is quite possibly the only person 
to have direct contact with almost all of the events related to 
phosphogypsum and the EPA since the Florida Institute of 
Phosphate Research was formed in 1979. His extensive research 
on the subject of phosphogypsum is commendable and we look 
forward to his expert testimony. Welcome to the subcommittee, 
Mr. Lloyd, and you are recognized.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.001
    
    [GRAPHIC] [TIFF OMITTED] T5739.002
    
    STATEMENTS OF G. MICHAEL LLOYD, JR., RESEARCH DIRECTOR, 
 CHEMICAL PROCESSING, FLORIDA INSTITUTE OF PHOSPHATE RESEARCH; 
     DR. MALCOLM E. SUMNER, AGRICULTURAL AND ENVIRONMENTAL 
CONSULTANT, REGENTS' PROFESSOR EMERITUS, UNIVERSITY OF GEORGIA; 
   DR. DOUG CHAMBERS, EXECUTIVE VICE PRESIDENT, DIRECTOR OF 
RADIOACTIVITY AND RISK STUDIES, SENES CONSULTANTS LIMITED; AND 
DR. CHIH-SHIN SHIEH, ENVIRONMENTAL CONSULTANT, CS ENVIRONMENTAL 
                           SOLUTIONS

    Mr. Lloyd. Thank you.
    Finding environmentally sound ways to utilize phosphogypsum 
was an original priority with the Florida Institute of 
Phosphate Research. One of our first activities was to have an 
international symposium on phosphogypsum in November 1980. Our 
efforts looked at three different basic approaches. To use it 
as a chemical raw material, use it in construction and for 
agriculture. We did sponsor research to recover the sulfur 
values but economics made that somewhat impractical. For 
construction purposes the only thing we really looked at was to 
use it for road building. Our plan was to build a secondary 
road first, test it environmentally and for construction 
purposes and then go ahead and build a primary and later on an 
interstate type road.
    We did build 2 secondary roads, one in Polk County and one 
up in north Florida in Columbia County. We have tested both of 
them environmentally and testing continues on the Polk County 
road even until today. Testing by the Florida Department of 
Transportation has revealed that the Polk County road has 
gotten stronger with time rather than getting weaker. It also 
has shown fewer repairs than what is necessary for other roads.
    Phosphogypsum has been tested for all kinds of agriculture. 
We have used it for truck crops, for grass, and we have also 
tested for radionuclide uptake by both the cattle and by the 
grass. We have used it to find out about curing subsurface 
acidity and we have also used it to improve the water 
penetration in the soil. One of the other uses we have gotten 
into is for marine applications, for making glass and for daily 
cover in municipal solid waste landfills.
    Until December 1989, phosphogypsum was sold as a product of 
commerce in all States of the country. At that time, EPA 
elected to declare it a waste and forbid its use, including 
forbidding research. In the time period between 1989 and 1992, 
EPA developed the risk assessments that are used as the basis 
for the use ban in the 1992 rule. The 1989 proposed rule did 
not have any data to support the ban. All of the bans that they 
have done are based on building a house on either the roadbed 
or building it on land that was fertilized with phosphogypsum 
for 100 years. A residency value of 70 years was used to 
calculate the risk, which is somewhat longer than the values 
used in many EPA risk calculations.
    The ban on agriculture was based on averaging the use in 
California for soil treatment and using it for agriculture in 
this part of the country. The two uses that were used to get an 
average are totally unrelated. They are like saying apples and 
oranges are the same because both of them are fruits. The 1992 
rule did allow the use of north Florida phosphogypsum in 
agriculture and prohibits all other uses. However, you can use 
EPA's methodology and prove that building roads, using it in a 
landfill or anything else will not produce a risk that would 
exceed EPA's acceptable risk.
    The question may be asked why are we so interested in using 
phosphogypsum. We do believe that leaving it in the stacks is a 
worse situation than using it. The road building economics are 
very attractive. The roads we built in Polk County, we saved 
$100,000 a mile by using phosphogypsum over traditional 
material. The actual soil use--using it for agriculture in 
Florida could have an even greater impact. All of the southeast 
is short on sulfur. Using our phosphogypsum, we would be able 
to increase the production and definitely affect what cattle 
raisers do in Florida.
    One of the things we would like to continue at this point 
is using it in landfills. We have demonstrated in both pilot 
and in the bench scale tests that it would be possible to speed 
up the decomposition of the material in solid waste landfills. 
If we can do this we would be able to decrease the amount of 
landfills that would be needed by 50 percent.
    We believe that all of these uses are practical, that the 
risks are acceptable and we would like to see something happen.
    Mr. Putnam. Thank you very much, Mr. Lloyd.
    [The prepared statement of Mr. Lloyd follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.003
    
    [GRAPHIC] [TIFF OMITTED] T5739.004
    
    [GRAPHIC] [TIFF OMITTED] T5739.005
    
    [GRAPHIC] [TIFF OMITTED] T5739.006
    
    [GRAPHIC] [TIFF OMITTED] T5739.007
    
    [GRAPHIC] [TIFF OMITTED] T5739.008
    
    Mr. Putnam. Our next witness is Dr. Malcolm Sumner. Dr. 
Sumner is an agricultural and environmental consultant. 
Currently he is Regents' professor emeritus at the University 
of Georgia. He graduated first in his class with a BS in 
agriculture and cum laude with his masters of science in 
Agriculture from the University of Natal in South Africa. 
Additionally, he has a doctorate of philosophy from the 
University of Oxford. He has edited five books, including the 
Handbook of Soil Science; authored and co-authored two books; 
249 referred papers; 41 book chapters and over 300 
publications. Dr. Sumner's specialties include soil 
contamination and pollution, beneficial reuse of anthropogenic, 
solid and liquid wastes in agriculture and gypsum as an 
ameliorant for subsoil limitation, among many other topics. He 
has extensive experience in international soil science and 
agronomic research, consulting and teaching. He has received 
numerous awards recognizing his scientific contributions, 
including an honorary doctor of science degree from the 
University of Natal in 1997.
    Aside from the fact that you are a Bulldog, you are a very 
well qualified individual for this panel. Welcome, Dr. Sumner, 
you are recognized.
    Mr. Sumner. Thank you, Mr. Chairman. Today I am going to 
talk about the agricultural uses of phosphogypsum. This should 
be judged against the EPA rule which came up with a value of 
2,700 pounds per acre every 2 years for 100 years. This comes 
down to 1,350 pounds of gypsum per acre per year. So that is 
the yardstick against which we should judge.
    Now gypsum is used in many facets of agriculture, for sodic 
soils which do not occur in the southeast here, so I will not 
dwell on those at all. But as a calcium and sulphur source for 
crops, very important, as an ameliorant for the subsoil acidity 
and as a physical ameliorant.
    I am going to deal specifically, Mr. Chairman, with the 
rates recommended by our Cooperative Extension Service, which 
is the imprimatur of the State and Federal Government. For 
peanuts, in terms of calcium requirements, gypsum is used to 
strengthen the cell walls of the peanuts to prevent them from 
getting diseased. The recommended rates vary from 250 to 1,720 
pounds per acre every 2 to 3 years. So you are going to divide 
those numbers by two or three depending on the rotation. That 
gives you a maximum recommended value of about 600 pounds per 
acre and a most likely rate of between 125 and 430 with a 
minimum rate of between zero and 83.
    For tomatoes, the gypsum is used to extend shelf life. The 
recommended rates are between 430 and 860 pounds per acre every 
2 years. You have to divide those numbers by two, giving you a 
maximum rate of somewhere in the region of 430 pounds, most 
likely rates somewhere between 200 and 300 pounds and a minimum 
rate of between zero and 143 pounds.
    As far as sulphur requirements of the crops are concerned, 
these are much lower than the calcium requirements, and the 
recommended values are between 54 and 161 pounds per acre, 
giving you a maximum of 161 and a minimum of zero.
    As far as subsoil acidity amelioration is concerned, the 
recommended rates vary between 2.2 and 4.4 tons per acre every 
10, that was in my report, but my work has continued and that 
can be now said to be every 15 years. So that gives the maximum 
rate at 800 pounds or for 15 years at 530 pounds per acre per 
year, and a minimum rate there would be zero.
    To complete the picture, for sodic soils--which do not 
occur in this part of the world but occur in the western 
States--the recommended rates for gypsum would be between 7 and 
35 tons per acre over the period of the reclamation which one 
can assume only once is 100 years, and that gives you a maximum 
rate of 700 pounds per acre per year and minimum rates of 
between zero and 200.
    As far as soil crusting is concerned, the other physical 
ameliorant use, the recommended rate is between 0.5 and 1 ton 
per acre every 5 years giving you a maximum rate of 400 and a 
minimum rate of zero per year application.
    For ameliorating subsoil hard pans there is no 
recommendation, but the rates that are being used are the 
regional 4.4 tons per acre every 10 years giving you a maximum 
again of 800 and a minimum of zero.
    Now as far as the radiation hazard of the phosphogypsum is 
concerned, our experiments show that at the rate that we used, 
4.45 tons per acre in one application, we found no significant 
increase in lead-214, bismuth-214 or radium-226 in the soil 
profile down to a depth of 3 feet over 5 years. There were no 
increases in radiation in the above-ground parts of the plants. 
In the sandy soil we found there was a light movement of 
radium-226 in a column study in the lab, but this level in the 
leachate was well below the drinking water standard.
    So overall, from the rates I have shown you, the maximum 
rates that are actually likely to be applied in agriculture, 
this 1,350 pound per acre per year proposed by the EPA is too 
high. A more reasonable level in my view would be between 600 
and 800 as the maximum, but the most likely rate, Mr. Chairman, 
would be between 100 and 400 pounds per acre per year.
    The last point I would like to make, the basis of using 
concentration as the yardstick in banning the phosphate should 
be revised because I think cumulative load is much more 
important. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sumner follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.046
    
    [GRAPHIC] [TIFF OMITTED] T5739.047
    
    [GRAPHIC] [TIFF OMITTED] T5739.048
    
    [GRAPHIC] [TIFF OMITTED] T5739.049
    
    [GRAPHIC] [TIFF OMITTED] T5739.050
    
    [GRAPHIC] [TIFF OMITTED] T5739.051
    
    [GRAPHIC] [TIFF OMITTED] T5739.052
    
    Mr. Putnam. Thank you very much, Dr. Sumner.
    Our next witness is Dr. Doug Chambers. Dr. Chambers is the 
executive vice president and director of radioactivity and risk 
studies at SENES Consultants Limited which he co-founded in 
1980. He has been working in the area of environmental 
radioactivity and risk assessment for more than 30 years and 
has studied both radioactive and non-radioactive substances. 
Dr. Chambers has worked on projects across Canada, throughout 
the United States and abroad. He has participated on the United 
Nations Scientific Committee on the effect of atomic radiation 
since 1998 as a member of the Canadian delegation. Dr. Chambers 
is currently a consultant to UNSCEAR with responsibility for 
preparing the next UNSCEAR assessment of radon. He has 
supervised and carried out numerous studies of naturally 
occurring radioactive material in a wide variety of industries, 
including studies for the Florida Institute of Phosphate 
Research to examine alternative potential radiological risks 
arising from alternate uses of phosphogypsum in agriculture, 
road construction and daily cover at municipal landfills.
    Welcome to the subcommittee, Dr. Chambers. You are 
recognized.
    Mr. Chambers. Thank you very much.
    As noted by Mr. Lloyd, the 1989 NESHAPS in effect converted 
phosphogypsum from a useful byproduct to a waste and the focus 
of the concern here was the radioactivity in the phosphogypsum, 
which is the same as the radioactivity in the phosphate rock 
and is naturally occurring.
    In 1992 EPA did a reconsideration which allowed alternative 
uses with prior EPA approval. To my knowledge, I am not aware 
of any such uses having been approved to date. The EPA 
commented that the risk from indoor radon and direct gamma 
radiation were the issues of major concern at that time.
    In their 1992 rule in deciding on the maximum acceptable 
level of radium-226 which they determined to be 10 picocuries 
per gram, the Environmental Protection Agency used a lifetime 
risk of 3 in 10,000. I will come back to that in a moment. It 
is interesting to note that in addition to the 1992 rule, the 
EPA has used the same lifetime risk of 3 in 10,000 to establish 
cleanup levels for unrestricted use in CERCLA Superfund sites 
which have been contaminated with radioactivity. This rule, I 
believe, specifically excludes the risk from radon in that 
factor.
    Another important consideration in looking at the EPA's 
1992 rule is the rate of which phosphogypsum is assumed to be 
applied. I cannot compete with Dr. Sumner in that regard. I 
think I will basically compress my comment to the following: If 
you use a reasonable maximum application of perhaps 900 pounds 
then following no other changes in EPA's 1992 risk assessment 
you could then have unrestricted use of phosphogypsum 
containing up to 40 picocuries per gram by that simple change 
in the application rate to something that is more appropriate 
as opposed to an application rate of 2,700 pounds.
    In their 1992 analysis, the EPA assumed a lifetime of 70 
years of exposure, and yes, that is indeed possible but it is 
highly unlikely. In their Exposure Factors Handbook, a document 
prepared by EPA based on national data and surveys, EPA for 
other risk assessments recommends a duration of exposure of 30 
years, which according to the EPA is the upper 95th percentile. 
In other words, only 5 people out of 100 might live longer in a 
single home than 30 years.
    It is also interesting to note in their 1999 assessment of 
the risk from nonradioactive contaminants contained in 
agricultural fertilizers, the EPA used the average residency of 
a farmer of 17 to 18 years, also taken from their Exposure 
Factor Handbook. There is an inconsistency in this regard. I do 
not have time to go into the details but there is much more in 
my written presentation.
    I would briefly like to comment on risk assessments we have 
done in support of FIPR's application for road construction, 
land use, agricultural application of phosphogypsum, daily soil 
cover for landfill. To comment that when you use distributions 
of parameters to take account of natural variability and 
uncertainty the numbers are very different. And we calculate 
using numbers that are generally traceable and would be 
consistent with many of EPA's risk assessments, upper risks 
that are below 1 in 10,000, well within the EPA's risk range 
from 1 to 3 in 10,000. I think this is very important. These 
numbers that we calculate would be for a person who lives in a 
home built on either a road that had been constructed with 
phosphogypsum or on land to which phosphogypsum had been 
applied for 100 years. We believe the maximum risk would be 
less than 1 in 10,000, much less even than the 3 in 10,000 risk 
limit that EPA has used. I believe it would be unfortunate to 
preclude beneficial and safe uses of phosphogypsum by 
unnecessarily conservative risk assessments.
    Thank you very much.
    [The prepared statement of Dr. Chambers follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.009
    
    [GRAPHIC] [TIFF OMITTED] T5739.010
    
    [GRAPHIC] [TIFF OMITTED] T5739.011
    
    [GRAPHIC] [TIFF OMITTED] T5739.012
    
    [GRAPHIC] [TIFF OMITTED] T5739.013
    
    [GRAPHIC] [TIFF OMITTED] T5739.014
    
    [GRAPHIC] [TIFF OMITTED] T5739.015
    
    [GRAPHIC] [TIFF OMITTED] T5739.016
    
    [GRAPHIC] [TIFF OMITTED] T5739.017
    
    [GRAPHIC] [TIFF OMITTED] T5739.018
    
    [GRAPHIC] [TIFF OMITTED] T5739.019
    
    [GRAPHIC] [TIFF OMITTED] T5739.020
    
    [GRAPHIC] [TIFF OMITTED] T5739.021
    
    [GRAPHIC] [TIFF OMITTED] T5739.022
    
    [GRAPHIC] [TIFF OMITTED] T5739.023
    
    [GRAPHIC] [TIFF OMITTED] T5739.024
    
    [GRAPHIC] [TIFF OMITTED] T5739.025
    
    [GRAPHIC] [TIFF OMITTED] T5739.026
    
    [GRAPHIC] [TIFF OMITTED] T5739.027
    
    Mr. Putnam. Thank you very much, Dr. Chambers.
    Our next witness is Dr. Chih-Shin Shieh. Dr. Shieh is an 
environmental consultant at the CS Environmental Solutions that 
he founded in Melbourne, FL. Dr. Shieh was research faculty and 
the director of the Research Center for Waste Utilization when 
he conducted the phosphogypsum studies at the Florida Institute 
of Technology. Dr. Shieh's areas of expertise include waste 
characterization, minimization and utilization. His academic 
training, research experiences and professional services have 
allowed him to become one of the few scientists in the Nation 
who are able to deal with problems concerning pollution that 
occur in both terrestrial and marine systems. Dr. Shieh has 
published more than 40 scientific papers and technical reports 
in the area of waste stabilization and utilization. He has 
graduated more than 14 MS and four PhD students under his 
tutelage. Welcome to the subcommittee, Dr. Shieh.
    Dr. Shieh. About 10 years ago when I stood on the top of 
one of the 300-feet phosphogypsum stack piles, one idea that 
comes to my mind was what can we do about it. I mean, can we 
come up with a better approach to manage this material? And 
just like Mr. Chairman's opening statement, is phosphogypsum a 
waste or a resource? Now by definition, a waste is a substance 
that we do not want to use and has no usefulness at all. If the 
substance can be used for any beneficial purpose and in the 
meantime does not generate adverse effect to the environment 
then the material should not be considered as a waste.
    So based on that concept we come up with an idea. We can 
apply phosphogypsum in municipal waste landfills. There is good 
evidence to suggest that the addition of phosphogypsum could 
enhance biodegradation of municipal waste in landfills, because 
during the early stage of waste decomposition in landfills the 
degradation process is essentially aerobic. That means it 
depends on the oxygen available so the microorganisms can carry 
out the process of biodegradation. However, very soon over time 
as oxygen is depleted the decomposition process becomes 
anaerobic. That means the bacteria used--you know, some oxygen 
compounds result dealing with free oxygen in the air. In an 
anaerobic process--again, that is in an oxygen depleted 
environment--bacteria depends on oxygen bound in the compound 
to carry out biodegradation. If there were limited oxygen bound 
compounds then the biodegradation process will be significantly 
minimized. So that is why it has been reported that buried 
bacteria--I am sorry, vegetables such as lettuce--a piece of 
lettuce was still in good shape after being buried at a site 
for more than 20 years, because the biodegradation was limited.
    Since phosphogypsum is enriched with sulphate it is 
reasonable to assume that sulphate using bacteria colonies 
present in landfills will use phosphogypsum as an energy source 
after oxygen is depleted. The sulphur enriched phosphogypsum 
can be used in anaerobic conditions such as landfills.
    About 10 years ago, in 1996, we carried out a three-phase 
study. Phase I took about 2 years, from 1996 to 1998--I am 
sorry, 1994 to 1996. The phase II started from 1997 to 1999 and 
three questions were addressed. First, does this concept work? 
Is this only a hypothesis or is this practical issues? 
Secondary, we want to know under what conditions this concept 
could work. And third, we want to answer if this process would 
generate any adverse effect to the environment.
    So in the phase I studies we concluded that yes, this 
concept is practical. Under experimental conditions 
phosphogypsum can actually be used by the bacteria and 
generation of a diverted level of hydrogen sulfate was not 
found. Also phase I study concluded that if we put one 
portion--one part of phosphogypsum with three parts of 
municipal waste together, the reaction would meet our purpose.
    So following phase I, we carry out phase II right away. 
Similarly phase II is to kind of extend the reaction period and 
use a simulant of municipal solid waste, and we come up with 
similar conclusions that one portion of phosphogypsum can be 
used with municipal solid waste and can achieve more than 50 
percent reduction in organic matters in 3 months.
    So then immediately after the phase II study, we proposed 
to carry out a phase III field study. That was in 1999. That 
was about 5 years ago, and it is still pending EPA's approval. 
Through the field study we will come up with very conclusive 
findings to demonstrate that this approach is an 
environmentally sound approach and a lot of parameters will be 
monitored in the phase III study to further assure there is no 
adverse effect to the environment.
    Thank you.
    [The prepared statement of Dr. Shieh follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.028
    
    [GRAPHIC] [TIFF OMITTED] T5739.029
    
    [GRAPHIC] [TIFF OMITTED] T5739.030
    
    [GRAPHIC] [TIFF OMITTED] T5739.031
    
    [GRAPHIC] [TIFF OMITTED] T5739.032
    
    [GRAPHIC] [TIFF OMITTED] T5739.033
    
    [GRAPHIC] [TIFF OMITTED] T5739.034
    
    Mr. Putnam. Thank you very much.
    I want to thank all of our panel one witnesses. You know, 
for those who are trying to digest everything that these 
engineers and scientists have put before us, what I've heard is 
that you have through research identified essentially three key 
potential uses for phosphogypsum--road construction, soil 
amendment for agricultural purposes and the potential for cover 
fill on municipal solid waste landfills. And that there has 
been a great degree of inconsistency, almost a double standard 
or a rule unto itself promulgated by EPA that applies to 
phosphogypsum but does not apply to their risk models for other 
types of products that they are running risk assessment models 
on. So if we could, let us kind of start at 40,000 feet and 
work our way down.
    What--to any or all of you--do you believe that the risks 
associated with dispersing phosphogypsum either through 
landfill, road construction or agricultural purposes, do you 
believe that the risks associated with its dispersal, outweigh 
the risks of stacking it in a concentrated form in the types of 
mountains that we see? Which risk is greater, concentrating it 
or dispersing it? We will begin with Mr. Lloyd.
    Mr. Lloyd. No, I definitely do not think that the risk of 
using it is as great as leaving it in the stacks. I think you 
are going to have some long term effects that you will have to 
deal with. My concern with using it is basically not very 
large. One thing that I would tell you is, if we built a road 
with it, I would have no argument about my children or my 
grandchildren or myself living alongside the road, and I would 
not have any concern about living in a house 100 years from 
now, which I will not get a chance to do, that had been 
fertilized with phosphogypsum. I think the work that Dr. 
Chambers has done demonstrates this very, very strongly in a 
scientific basis.
    Mr. Putnam. Dr. Sumner.
    Mr. Sumner. Mr. Chairman, I cannot speak for the risk of 
the stack because that is out in my backyard. I do not know 
much about that, but I can tell you pretty well categorically 
that if you use phosphogypsum at the recommended rates 
according to the Cooperative Extension Service, there is 
absolutely no risk because we were able to find no radiation 
residue as a result of applying phosphogypsum in all the 
agricultural applications that we have made. In fact, if one is 
concerned about the radon gas, in many parts--not so much in 
Florida, but in much of the Piedmont part of the Southeast, the 
radon emanating in basements is probably a bigger threat than 
anything you would ever get from phosphogypsum. So I think the 
risks are absolutely minimal when used correctly. Now, of 
course, if you use it incorrectly that is another matter, but 
that is off-label so to speak and one cannot address that in a 
hearing like this.
    Mr. Putnam. Dr. Chambers.
    Mr. Chambers. Thank you. I would like to make two comments. 
First of all, I agree with Mr. Lloyd that the use of 
phosphogypsum for agriculture, for roads, for daily cover on a 
landfill, and there are some other uses we did not have a 
chance to talk about today as well, would indeed in my opinion 
actually be smaller risks than the risk associated with leaving 
the phosphogypsum in the stack.
    The referenced scenario here is building a home. So if you 
were in the future to lose control of the land--and that is a 
whole other issue--and build a home on a phosphogypsum stack 
the radium-226 concentration, which is really the issue we are 
talking about, would in fact be simply the radium-226 
concentration in the phosphogypsum per se. For any of the uses 
we are talking about with appropriate land application with 
dilution in the daily cover, the actual final concentration of 
radium-226 would in fact be smaller than it was in the 
undiluted phosphogypsum, and indeed so small that it would be 
difficult to find within the natural variability of radium-226 
which occurs in my backyard and your backyard and everybody's 
backyard. And indeed the radon flux that would arise from the 
incremental radium-226 because of the phosphogypsum would in my 
opinion be so small that it would not be detectable within the 
natural variation of radon that occurs in homes in Florida and 
indeed throughout the United States at the present time. 
Setting aside the absolute risk, which I personally believe to 
be extremely small, the incremental risks compared to radium 
and radon from natural background would be vanishingly small 
and in my opinion not measurable. Thank you.
    Mr. Putnam. Dr. Shieh.
    Mr. Shieh. If the use of phosphogypsum is under good 
monitoring, I do not think that kind of use will be worse than 
current practice.
    One comment about the future of building on the site, the 
possibility in terms of risk assessment. For some reason that 
concept has been used everywhere in the whole country. When I 
was involved in Zinereta Ash project a similar question was 
always asked, how about 100 years later if my grandchildren 
build a house on the abandoned site with all kinds of waste 
material? We need to be honest and understood that today we 
already have very good systems, OK. One of the provision of 
service I am doing now is when the builder or the developer, 
they try to develop a site for new business, community or new 
residential community, they are required to do so-called phase 
I site assessment studies. And through that study any 
location--any property will be investigated for the history of 
the property. So practically and realistically that scenario 
will not happen even 100 years later unless the whole 
governmental system was destroyed for some reason, otherwise 
that is really not a scenario that would happen, that someone 
would build a house on the top of a waste pile. It is not going 
to happen. Again, we have very good system today already. So I 
truly believe if any good use of the material and under 
monitoring, then I support that idea.
    Mr. Putnam. You know, the only way to deal with these 
issues is in a straight-forward science-based manner and you 
have certainly given us a foundation for a science-based 
approach to alternative uses of phosphogypsum. But, you know, 
radioactivity, that term certainly conjures up concerns, fear 
even among people. Help the subcommittee to understand the 
context of the radium-226 levels. How does it relate to other 
commonplace daily activities that people may be engaged in and 
whatever the background radiation of those may be, whether it 
is flying or smoking or the presence of radon in homes today? 
Help us put that number in context.
    Mr. Chambers. Perhaps I will try. First of all, I would 
like to try and provide a small context on the risk range of 1 
times 10 to the minus 4. As I mentioned--that is 1 in 10,000--
as I mentioned earlier, the EPA has also used risk numbers as 
high as 3 times 10 to the minus 4 in rulemakings and therefore 
at least for that purpose, EPA, one would presume, considers 
that level of risk as safe. Well what is a risk of 1 in 10,000? 
That is a lifetime risk. So if you use EPA's notion of a 
lifetime of 70 or 75 years, in essence that works out to an 
annual risk of about one in a million. I am not going to tell 
you my exact age, but I am somewhere between 50 and 60 and it 
is pretty typical unfortunately that at my age natural causes 
of death in the average person, I would have a risk of about 
one in a million from just 1 hour of doing what I do every day. 
So assuming this hearing this morning takes 2 hours, my risk 
would be approximately two in a million just from just simply 
sitting in this room and enjoying this conversation. That's the 
kind of context we are looking at. It is a risk I suffer every 
hour or am exposed to every hour of the day at my age. It is 
unavoidable.
    Radioactivity is unavoidable. All soils everywhere have 
naturally occurring radioactivity and in particular radium-226, 
which is the focus really of this discussion because it is a 
source of the radon that crops up in the open air and comes 
through our floors into our homes.
    In any event, if you look at--it does not matter whether 
you look at EPA's risk assessments or ours, the incremental 
contributions of radium, even after 100 years of application, 
that I think this panel would consider exceptionally high 
application rates, is still well within the range of natural 
radium-226 in soils. So you are not going to be changing that. 
And if you look at--GEOMET did a very detailed study of radium 
in soils and indoor radon in homes in this county and in many 
other counties in Florida. And if you look at the maximum 
incremental radon contribution it is less than a tenth of the 
average and less than a thirtieth of the upper number. It is a 
very small fraction, much less than the variation you would go 
from one home to the next because of the difference in life 
styles, slightly different age of construction. It is not a 
detectable phenomenon. I am a physicist, I like models, it is 
something I can predict. It is something EPA can predict, but I 
believe it is not something you could actually measure because 
it is there naturally in much higher and very variable 
quantities.
    Finally I might add, the EPA has a 4 picocurie per liter 
standard at which they would like to have people initiate 
cleanup in the homes and what we are talking about, the maximum 
incremental contribution that I would predict would be more 
than 20 times smaller than that. The absolute maximum much less 
the average.
    I hope that provides some context. Thank you.
    Mr. Putnam. Does anyone else wish to add anything to that? 
Mr. Lloyd.
    Mr. Lloyd. I always find it kind of comical that since you 
are in a granite office building in Washington, you probably 
have more radon than what most of the people in this room 
experience in a day.
    Mr. Putnam. EPA has a nice big granite building, too, maybe 
that is what is going on there. [Laughter.]
    The roads that were constructed in Polk County, there are 
homes along that road, Mr. Lloyd. Do you know how many homes 
are along that road?
    Mr. Lloyd. May I ask a question?
    Mr. Putnam. You may.
    Mr. Lloyd. John, how many homes?
    Voice. About 40.
    Mr. Lloyd. About 40.
    Mr. Putnam. Forty homes along the road that had 
phosphogypsum used as the road base. Does testing continue 
along that road?
    Mr. Lloyd. Testing is continuing on it even until today.
    Mr. Putnam. And you mentioned that the DOT testing 
indicated that roadbed has grown stronger over time, which is 
certainly a favorable thing for its durability as a roadbed, 
but what are the health effects that have been detected as part 
of that testing?
    Mr. Lloyd. The road is kind of difficult to come up with 
the health effect for one reason. Everything we have shown is 
fairly normal. The land the road is built on is reclaimed land. 
The radiation over the land next to the road is higher than the 
radiation on the road. So the people that are living there are 
experiencing radiation levels that are higher than they would 
ever have if they built the house on top of the road.
    Mr. Putnam. OK. What other leachates have been found in the 
monitoring of the roads already built in Polk County?
    Mr. Lloyd. The only thing that we may have seen--and I will 
ask Dr. Burkee to correct me if I am wrong--is the sulphate 
increase at one well.
    Mr. Putnam. You mentioned that NASA and the Department of 
Energy have expressed an interest in using phosphogypsum based 
glass in a ceramic material. Could you elaborate on that?
    Mr. Lloyd. Well we have a proposal to make glass out of 
phosphogypsum. We have done all the research. We are trying 
to--the people that did the research are trying to put together 
a system to start making glass. One of the techniques that has 
been studied would actually--in preparing the phosphogypsum for 
use, would enable you to produce hydrogen. In the course of our 
discussions--and this is still a preliminary study at this 
point, a paper study more than anything else. But in talking to 
both NASA and DOE, they are very interested in the fact that 
you might be able to produce hydrogen. NASA because they use it 
for launching space vessels and DOE because they would like to 
see us go this hydrogen-based economy that has been proposed 
that would reduce greenhouse gases. We are interested and we 
are working. That is all I know to say at the moment.
    Mr. Putnam. All right, sir. Dr. Chambers.
    Mr. Chambers. I have one further comment. I did not have 
the chance in my comments this morning to say anything about 
the glass. I would like to point out that when you make the 
glass you do not do anything obviously to change the gamma 
radiation, but, in fact, you trap the radon. The radon cannot 
escape. So in essence because it is like wall tiles--it is like 
a ceramic like material--the radon which has a half life of 3.8 
days will decay within the glass like material and actually not 
be available to enter the rooms of living spaces or working 
spaces. So in actual fact, the radon risk in that case would be 
very much lower.
    Mr. Putnam. Could you elaborate on the half life of 3.8 
days? Was that what you said?
    Mr. Chambers. Yes, I will. Radon-222 is a noble gas so it 
is able to diffuse through air and through soils, but it does 
have a radioactive half life. If you take 120 atoms of radon 
now in 3.82 days you will have approximately, plus or minus, 60 
and in 7.6 days if my arithmetic is correct, you will have half 
of that again. So you will have 30. In another 3.8 days you 
will have 15. That is about as far as my mental math can carry 
me.
    But in essence the radon that is produced within the matrix 
of a soil, within a matrix of PG, within a matrix of a cemented 
road can only survive because of its physical half life for a 
finite time and the average time is 3.8 days. Therefore, if 
something interferes with how easy it is to diffuse through the 
pore space well then it will decay and never actually enter the 
open air or the air of a building in which you might use tiles 
for a roof or a floor. So in actual fact, as I say, it does not 
do anything to change the gamma levels which is another kind of 
radioactivity. But certainly making it into a glass-like 
material hugely reduces the fraction of radon that can survive 
long enough to actually be released into room air. Thank you.
    Mr. Putnam. Thank you.
    The EPA risk model for phosphogypsum was a 70-year 
residency for occupants of a hypothetical house. When 
calculating the risk for phosphogypsum that is 18 hours a day, 
7 days a week for 70 years. Does that assume an airtight house, 
air conditioning, no air conditioning, ventilation, windows 
open? How does that factor into that risk assessment?
    Mr. Chambers. If I understand the EPA's risk analysis 
correctly, I do not think they actually considered any of that. 
I think they used--I stand to be corrected, but I believe they 
used a generic factor whereby they took the radium 
concentration in the soil that will be built up over time by 
application of this very high fertilizer rate, for example, and 
then use a factor--for every picocurie per gram of radium-226 
in the soil you would find 1.25 picocuries per liter in the 
indoor air of the home. So it is a generic--it is a generic 
number.
    Mr. Putnam. And what is a more reasonable risk analysis 
number to use other than the 70-year residency?
    Mr. Chambers. I have some sympathy for EPA nationally, but 
when you look at--for example, in Florida there is a huge 
amount of data that relates--from the GEOMET survey, for 
example, that relates specifically to soil concentrations of 
radium and the corresponding indoor radon levels. So one of the 
things that we did in our risk assessment for uses in Florida 
was to try and use as much Florida-specific data as possible. I 
think it is important where information exists to use data that 
is appropriate for the application and appropriate for the 
intended area of use.
    Mr. Putnam. Mr. Lloyd, have you received approval from EPA 
to pursue NASA's request to utilize phosphogypsum in glass?
    Mr. Lloyd. We have not really talked to EPA about the 
glass. That will be the next thing when we decide to go into a 
full scale plan. We have done all the benchwork, we have done 
all the pilot work. We would like to go into a demonstration 
sized plant and that is in the works. We will need to go to EPA 
at that time. Based on our past experience with them, it will 
take 3 or 4 years to get an answer.
    Mr. Putnam. Do you have any permit requests pending with 
them now?
    Mr. Lloyd. We have one with them for the landfill that Dr. 
Shieh mentioned. Down in Brevard County they have agreed to let 
Dr. Shieh build a test cell that would be large enough to 
demonstrate to landfill operators the effectiveness of this 
technique. We asked 2 years ago, plus or minus, to get approval 
to do that. We have had--the problem we experience with most of 
these things is EPA said in 1992 that they would define the 
method to get an exemption to the rule. They have never done 
anything. We have tried to put things together, working 
particularly with Dr. Chambers for requests that would meet all 
of the requirements. Our biggest problem is we turn it in and 
in about 4 months, 6 months or 8 months later we get something 
that says you need to add this. So we add that, and in another 
4, 6 or 8 months we get another request that says you need to 
add this. So getting anything through EPA in terms of an 
exemption to the rule is not the simplest thing that anybody 
ever did. The only thing that we have that would stand up today 
is, EPA has said that if we wanted to build a road, if we would 
get a deed restriction on the road so that you could never 
build a house on it, that they would have no objection to 
building the road. But even when we have worked with getting an 
exemption request for a given road, even with a deed 
restriction, we have to have an exemption request. It has been 
a long-term, frustrating affair.
    Mr. Putnam. Dr. Sumner, you went into great technical 
detail on the calculations that EPA used particularly for the 
agricultural uses. Could you take some time to elaborate on the 
calculations they made versus the calculations that you believe 
that they should have made using realistic assumptions for the 
soil types and the crops that are being tested?
    Mr. Sumner. Well they came up with this value that was 
2,700 pounds per acre every 2 years. That is the standard that 
they set the rule on. Now, I do not know the exact calculations 
that they went through establishing the rule. What I am saying 
is that the uses of gypsum that are recommended by the 
Cooperative Extension Service are all much below that level. So 
that should--the actual uses that are recommended in the 
agricultural industry are the rates that should be used in the 
calculation, not the value they used. That is my point.
    Mr. Putnam. Are the calculations that they used available?
    Mr. Sumner. Yes, I think so. Well, I do not know if they 
are available. I started at the point of 2,700. That is what I 
know. I do not know about their calculations.
    Mr. Putnam. Are the working papers that are used by the 
EPA, are they available to the public through our traditional 
open records laws?
    Mr. Lloyd. The working papers for the 2,700 pounds are 
available in the BID documents for the 1989 rule. What they did 
was take California's applications for sodic soil, which is, as 
Dr. Sumner has mentioned, are significantly higher than you 
would use for fertilization. They took those and averaged them 
with numbers that were used for fertilization from Georgia and 
Florida. They did a couple of things wrong when they did this. 
No. 1, they were not agronomists obviously. They did not look 
at what Dr. Sumner has mentioned about peanuts in which you 
apply phosphogypsum 1 year but you do not plant peanuts again 
for another 2 years. You use a 3-year crop rotation. If you do 
not do this, you get nematodes that destroy the quantity of 
peanuts and you get a fungus that will destroy the quality. So 
they took these two totally dissimilar techniques and used them 
to average to come up with a 1,350 pound per year average. We 
should really be dealing, as Dr. Sumner says, probably no more 
than 400 or 500 pounds per acre. We should not be comparing, as 
I say, the soil treatment with fertilization. This is like 
taking apples and oranges and saying they are both the same 
because they are fruit.
    Mr. Putnam. You have made that point that the California 
numbers are irrelevant to the needs of the Southeast. Could you 
explain what a sodic soil is and why it is a different animal 
than the Southeast?
    Mr. Sumner. Mr. Chairman, I think I will do that.
    Mr. Lloyd. He can do a better job than I can.
    Mr. Putnam. Go right ahead.
    Mr. Sumner. Sodic soil, Mr. Chairman, is a soil that is 
impacted negatively by the presence of sodium irons. The sodium 
irons in the soil cause the physical properties of the soil--in 
other words, the ability of the soil to accept water at the 
surface and transmit water through the profile--to be very 
negatively impacted. So in sodic soil the transport of water 
from rainfall to some groundwater point is impacted very 
negatively. It is very slow and they are very difficult soils 
to work on. The phosphate--well phosphogypsum or any gypsum--
generic gypsum is used in the reclamation of these soils and 
supplied at--relative to what we use in the Southeast here, 
relatively high rates, in order to exchange the sodium from the 
exchange complex of the soil and replace it with calcium which 
improves the physical condition of the soil. So that is a 
reclamation technique, and you would only do that once. So the 
rates that they use, sort of 35 tons maximum, would be for a 
one time application to reclaim the profile so you can bring it 
back into agriculture. So you should divide that by 100, in my 
view, by the standards that the EPA has used to assess the 
annual rate, because you only apply that once in the whole 
lifetime of the soil. Once you reclaim the soil, it will stay 
reclaimed provided it would not be inundated by the sea or some 
other negative introduction of sodium into the soil. So once 
you reclaim it it is reclaimed. So that is the crux. And, of 
course, it is not relevant here in the Southeast at all. We do 
not have any sodic soils that are in agriculture in the 
Southeast at all.
    Mr. Putnam. Now in north Florida the phosphogypsum 
byproduct of the mining up there is allowed to be used as a 
soil amendment and it is used predominately by peanut growers. 
Do you believe that the differences in the north Florida 
phosphogypsum and the central Florida phosphogypsum are 
significant enough to allow the use of one and ban the use of 
the other?
    Mr. Sumner. Do I think that?
    Mr. Putnam. I will begin with you.
    Mr. Sumner. Absolutely no. I mean, as far as I am 
concerned, at the rate you would use them as an ameliorant for 
peanuts, I do not think you would ever be able to find any 
difference in the peanuts or the soil. I mean, it is far lower 
than the rates--we actually tested the radiation, it was 
applied at rates that were of the order of three and four times 
the rate that would be cumulatively applied to peanuts.
    Mr. Putnam. Mr. Lloyd.
    Mr. Lloyd. I do not think you would have any problem. EPA 
based their ruling on the fact that north Florida has 10 
picocuries per gram of radium and central Florida has an 
average of 26, and that is where their differences came from. 
But I am like Dr. Sumner, I cannot see where you would ever 
have enough phosphogypsum used in agriculture for fertilization 
that it would ever cause a problem. We did have some work that 
was done by Dr. Jack Grexicle with the University of Florida 
using it on forage. As I have mentioned, in Florida, if we 
could do what Jack thinks we could, we could improve the 
quality of the grass to the point that we could make a very 
definite positive economic effect for the Florida farmer, 
because a cow uses grass that has the proper level of sulphur 
more efficiently than it does some other grass. You have 
demonstrated in parts of the world 20 percent weight gains just 
because of having proper sulphur fertilization. Jack is here 
today. If you all would like to have him address you, he can 
give you all the details.
    Mr. Putnam. Dr. Chambers.
    Mr. Chambers. Thank you, very much. It is difficult to add 
to what my colleagues have said, but I would like to make one 
additional comment. As Mr. Lloyd indicated there is 
considerable detail about the EPA's risk assessment in the 1992 
BID, including the EPA's own analysis of the effects of a 
biennial, every 2 years, application rate at 900 pounds per 
acre for 100 years. Without any other changes, even leaving the 
70 years, and without any other changes to the risk assessment 
the EPA themselves indicate the lifetime risk from the 
application of 900 pounds every 2 years is less than 1 in 
10,000, well within their risk range. So even if you--even if 
you doubled that, that would still be well within the range of 
3 in 10,000. So I think simply without any other changes, even 
by EPA's own risk assessment, with the appropriate application 
rates there should be no restriction in my opinion at least on 
the use of phosphogypsum as an agricultural installment.
    Mr. Putnam. Dr. Shieh, do you wish to add anything?
    Mr. Shieh. No. I did not study on this subject, so I do not 
want to make comments.
    Mr. Putnam. The phosphogypsum from north Florida is allowed 
by law to be used for agricultural purposes and the 
phosphogypsum down here is not, and it is not allowed to be 
used for a roadbed with the exception of the test roads that 
were built. Now this being Florida, do you not believe, Mr. 
Lloyd, that the likelihood of building homes on top of previous 
agricultural land is greater than the likelihood of building a 
home on a road bed?
    Mr. Lloyd. Well, I have always had a problem in 
understanding why anybody would build a house on a roadbed. 
[Laughter.]
    Particularly in Florida. I do not know how to explain the 
logic. That is all I am going to say. I would doubt--I just do 
not know where this ever happens, but I doubt that it is going 
to happen in Florida.
    Mr. Putnam. Well, I do not want to ask our scientists who 
are very precise to speculate outside their field, but I think 
that the facts would show that more homes are built in Florida 
every year on former agricultural acreage than on former road 
beds.
    Dr. Shieh, you suggest that the bacteria would use the 
sulphate enriched phosphogypsum after oxygen is depleted and 
delay anaerobic decomposition. Does that have any beneficial 
effects on methane reduction in landfill?
    Mr. Shieh. Yes. When I say that is typical in an ordinary 
landfill, carbon dioxide would be generated first when there 
was oxygen available, so that would be the byproduct of organic 
decomposition, is generation of carbon dioxide. And over time, 
when the oxygen has been depleted, the methane begins to 
degenerate and the carbon dioxide begins to convert to methane. 
So it is like a curve, from there, to rise and decrease over 
time and methane from left to right will increase over time. So 
there is intersection at a certain point. What we discovered is 
that the intersection between the two extends beyond the time. 
That is an indication that the production of carbon dioxide has 
extended, prolonged, as many more organics have been 
decomposed. And in the meantime, the generation of methane was 
delayed because as the more organics decomposed slows up the 
actions.
    So that is what I meant in the summary, that by introducing 
additional available sulfate in phosphogypsum, that would 
extend and provide opportunity to have more organic matter 
decomposed and that further would reduce the volume of the 
waste accumulated at a landfill. And that is why we say we 
might be able to extend the lifetime of the landfill.
    Mr. Putnam. So increasing the efficiency of the 
decomposition. Has your research given you any indication of 
how many more years of service a municipality or local 
government may get out of that landfill if they were able to 
use phosphogypsum as cover?
    Mr. Shieh. Just based on the laboratory results, for 
example, if we compare the experimental reactor and the control 
reactor, in 3 months, we actually see more than 50 percent of 
organic matter has been decomposed on the experiment with 
phosphogypsum. So we say 50 percent more of the organic matter 
will be decomposed from the landfill. So we can say that is two 
times that the time could be extended. So assuming the site, 
the ordinary landfill, they say is 25 years, so we might be 
proposing an assumption could extend to 50 years of time. That 
is one simple assumption. Of course, as I say, if we were able 
to carry out a phase III field study, then we would be able to 
come up with more conclusive comments.
    Mr. Putnam. And you have a request pending before EPA to 
your phase III study?
    Mr. Shieh. Yes.
    Mr. Putnam. And when did you submit that request?
    Mr. Shieh. Immediately after completion of phase II, we 
submit to FIPR and FIPR went through the typical reviewing 
process, tech committee and the board of directors. They 
reviewed it and they actually approved the funding but because 
of the issue on the radioactivity, we have to wait for EPA to 
make a final green light. That was in either 1999 or 2000, 
about 4 years ago.
    Mr. Putnam. So you have been waiting 4 years for an answer 
to your request for your phase III.
    Mr. Shieh. Yes.
    Mr. Putnam. And were there adverse results in phase I or 
phase II that might have led EPA to delay their decision?
    Mr. Shieh. I do not think so. Throughout the phase I and 
phase II studies, except the issue on radioactivity, which we 
did not address because that was not a task of the study. On 
the other hand, we looked at the possible production of 
hydrogen sulfite, because when we introduce additional sulfur, 
theoretically we will consider there is going to be more 
hydrogen sulfite produced at the site, and theoretically that 
is possible.
    Another possible adverse effect would be the generation of 
ammonia. Ammonia at the site would prohibit microbiological 
process. And our study showed that the production of ammonia 
did not actually stop the microbiological process and the 
generation of H2S, hydrogen sulfite, was really not on a 
register label comparing the typical landfill site. And the 
reason we investigate and the reason could be because of 
formation of metal sulfite. During the formation of hydrogen 
sulfite, the sulfur compound could create ways to dissolve 
metal in the leachate and form the metal sulfite. Under that 
scenario, the hydrogen sulfite would not be generated.
    So we believe throughout the phase I and phase II studies, 
there is no adverse effect that could make the EPA slow down 
the process, and personally, I have no idea why they cannot 
make a decision as quick as possible.
    Mr. Putnam. Thank you, we'll have the opportunity to ask 
that this afternoon.
    Dr. Chambers, you have gone into some detail about the 1 in 
10,000 versus 3 in 10,000 standard. Are there other examples 
that you are aware of where they employ a 1 in 10,000 standard 
instead of their typical 3 in 10,000?
    Mr. Chambers. I believe I pointed out another example in my 
written testimony, which relates to the cleanup of a 
radioactive contaminated site from the fuel cycle. EPA I 
believe has a 15 millirem per year dose limit and the NRC, for 
the same situation, has a 25 millirem, and this has been much 
discussed. EPA equates a 15 millirem dose to a risk of 3 in 
10,000, but it is also very clear that 15 millirems does not 
include the dose from radon. So in actual fact, if you added 
radon in, the equivalent risk level would be much higher.
    I do believe that in that context, EPA would require a 
demonstration that you did not exceed their 4 picocurie per 
liter limit in addition to the 15 millirem.
    Mr. Putnam. The 95th percentile application rate--and this 
is a followup to what we just discussed--is the 1 in 10,000 the 
95th percentile, or is 3 in 10,000 the 95th percentile?
    Mr. Chambers. The 3 in 10,000 was the upper 95th 
percentile, which was the 2,700 pounds we referred to 
previously. As I mentioned though, the EPA's own analysis, 
using all their parameters in the 1992 BID concluded that an 
application rate of 900 pounds would produce a risk less than 1 
in 10,000. So even if you doubled that to 1,800 pounds a year, 
that would certainly be less than 2 in 10,000, still within the 
EPA's risk range of 3 in 10,000.
    So I think with the application rates that Dr. Sumner has 
indicated, that the EPA's own 1992 analysis would demonstrate, 
even with the conservative assumptions that they have made, 
that risk to someone building a home on land to which you 
applied 900 pounds or even twice that, for 100 years, would be 
well within their acceptable risk range.
    Mr. Putnam. We have focused mostly on the road bed, the 
landfill and the agricultural uses with the additional 
potential for the glass use. Dr. Shieh, you have done some work 
on the marine side of things. Are there potentials in that 
arena as well?
    Mr. Shieh. In the marine environment, we actually had some 
idea in terms of using the material for artificial reef in the 
ocean. Our organization did not make this proposal. Louisiana 
State University with a similar group, they actually proposed 
to do that. Maybe Mr. Lloyd can make a further comment on that.
    But yes, based on our previous studies and experience, we 
agree this material can be used for marine purpose, because the 
material is good for stabilization, can turn into a solid 
substance without any question at all. So if the radioactivity 
issue can be resolved, I do see it as a good application in the 
marine environment.
    Mr. Putnam. Thank you. Mr. Lloyd, did you want to add 
anything to that potential use?
    Mr. Lloyd. Louisiana State has done a great deal of 
research on using it in marine applications. They originally 
proposed using it for oyster conch, which is the solid material 
on which the young oyster attaches and grows from that point. 
It used to be you took all the oyster shells and returned them 
to the ocean and the young oysters could grow on the old oyster 
shells, but they have become too valuable to be put in the 
ocean. So now, they do import into Louisiana, granite out of 
Mexico. One of the problems in much of the Gulf is you put down 
this material and it is on top of the soil and over a period of 
time, it sinks down into the soil. So you no longer have a site 
for oysters.
    In addition, they want to use material of this nature to 
stop the erosion of some of the shores along the Gulf. There is 
a great deal of erosion into the marshes in fact all along the 
Gulf in Louisiana.
    And a third application that they are working on is for 
artificial reefs. They have developed formulas that would be 
economical and compete with material that would come out of 
Mexico. They have looked at the radionuclide situation to see 
what would likely happen if they had oysters growing or any 
other marine creatures growing on this material and they have 
determined that there is not a significant problem with any of 
the materials in phosphogypsum going into the food chain.
    But they are quite enthused, and in fact, I have a proposal 
on my desk for some additional work right now from Louisiana 
State.
    Mr. Putnam. That is an interesting segue into what other 
States are doing. Phosphate is not only mined in the United 
States either. What are other nations doing with phosphogypsum, 
what are the permitted uses in some of the other areas that 
also have phosphate mining? Dr. Sumner, perhaps you could speak 
to that?
    Mr. Sumner. Well, being a native South African, I know the 
situation in South Africa. The phosphogypsum that is made there 
is not radioactive, the source of phosphate is a different 
source and does not contain anywhere near the level of 
radioactivity that the Florida source does. And the gypsum is 
freely available and in fact, the excess until recently--they 
might not have stopped yet, but they are about to stop--was 
pumped out to sea. So there appears to be no environmental 
hazards associated with that at all, because it does not 
contain any radioactivity.
    And may I add one----
    Mr. Putnam. You may.
    Mr. Sumner [continuing]. New potential use, Mr. Chairman. 
Research has been carried out at the University of Georgia and 
is still underway, but in a very minor pilot study, we have 
found that application of gypsum, and it was not phosphogypsum, 
but generic gypsum, on the top of poultry litter in poultry 
houses, we can look forward to the possibility that when that 
litter is applied on land, that the application of gypsum will 
reduce the level of water soluble phosphorus which is a serious 
concern for the contamination of surface waters. We have only 
done this in the lab, pilot study, still going to be extended 
to the field, but that is another potential source that will be 
considerable in magnitude throughout the country because of the 
chicken industry being quite ubiquitous.
    Mr. Putnam. Thank you. Dr. Chambers, would you like to 
speak to the international nature?
    Mr. Chambers. Yes, I would. First of all, I would like to 
say that the EPA is well-regarded, as it should be, nationally 
and internationally, and quite often--I was in Brazil last year 
and Brazilians basically look to EPA for what can be done with 
phosphogypsum in application there, again, for road 
construction. So the EPA's determinations are very important 
and they extend, not just in Florida and throughout the United 
States, but they have worldwide implications. And that was a 
road application I was involved in.
    In Canada, at the present time, there are a variety of uses 
being looked at, one of which--and I am not an agronomist, so I 
apologize here, but I know that a company north of Edmonton is 
working with feedlots, cattle feedlot users, and the 
phosphogypsum is being mixed on an experimental basis to reduce 
odors. And it apparently is extremely successful. That could be 
a potentially important use.
    There have been experimental studies done on using 
phosphogypsum to reclaim in northern Alberta something called 
the Tarsands, which is a large mining operation, there has been 
experimental work with regard to using phosphogypsum to help 
reclaim Tarsands, a very good, positive, positive thing, and it 
worked very well on the experimental test.
    So there is work underway. I cannot speak to the work that 
is carrying on worldwide, but there do appear to be a number of 
potentially beneficial uses, which have to be carefully thought 
out to make sure we are not putting anyone at risk, as I said 
before.
    Mr. Putnam. Mr. Lloyd, prior to 1989, before EPA redefined 
a commercial product as a waste product that was therefore 
eligible for regulation, what were the primary uses of the 
phosphogypsum byproduct, and was it ever used in the 
construction of a building, for example?
    Mr. Lloyd. Could I answer that construction thing first? 
Not in this country, but overseas at that same time, you were 
doing it in Japan with phosphogypsum for building products, 
wallboard and other structural members; in France, in Belgium; 
in Germany, at times they have used this for making structural 
members as well as wallboard. There was no real problem with 
that.
    The biggest uses in U.S. history were agriculture. In 
California, you had a phosphoric acid plant, there is no gypsum 
stack. The phosphogypsum was used literally as it was 
manufactured. In the middle of the United States, you have some 
phosphogypsum stacks, most of those, there was some gypsum used 
for agriculture. At the time of the EPA ban, the only 
commercial application on roads was in Texas and at that time 
Mobil was actually building roads using phosphogypsum. We were 
still experimenting and going in a different direction than 
what they did. They had a different technique than what we were 
proposing to use.
    There have been roads built all over Polk County where the 
mining companies were concerned, that they used phosphogypsum. 
There are untold number of parking lots at churches and at 
places like that, that were built with phosphogypsum because 
somebody at church worked for the phosphate industry, they 
could get the phosphogypsum free. You did have one company 
around here, one paving company, that worked with phosphogypsum 
all the time on this type of job.
    That was about the uses of it.
    Phosphogypsum had been used in other parts of the world, 
not in this country, to recover sulfur to recycle it to make 
additional sulfuric acid, particularly in South Africa.
    But those are about the only uses I know of at that time.
    Mr. Putnam. Is there a potential for use on unpaved roads, 
as far as strength and durability and the amount that is spent 
by local governments to maintain clay roads, unpaved roads in 
rural parts, is phosphogypsum suitable for that purpose, 
assuming it were permitted?
    Mr. Lloyd. Structurally, yes. This is one of the things 
that we got into in north Florida with Columbia County. The 
road that was built up there is an asphalt paved road with a 
phosphogypsum base. One of the things they wanted to do was to 
go into all of their dirt, unpaved roads, and take and mix 
phosphogypsum into the soil and then compact it. The work we 
have done with Dr. Chang indicated this road would stand up an 
awful lot better than what the untreated road would. But that 
never went beyond that point.
    When you do this, you will have to face the possibility of 
some leachate of calcium and sulfur because gypsum is very 
slightly soluble. We have not done any tests to be able to tell 
you what that would amount to.
    Mr. Putnam. And do you know what the industry spends today 
managing the existing phosphogypsum stacks?
    Mr. Lloyd. I would not even want to guess.
    Mr. Putnam. Does anyone else have a comment on the 
environmental or economic impact of managing the stacks?
    [No response.]
    Mr. Putnam. Well, with that, I would like to ask each of 
our first panel of witnesses to make any closing comments that 
you wish to make, whatever issues we were unable to get to or 
whatever you wish could come out of this. This has been a 
process, very long in the making. I can remember trying to work 
through this issue in the legislature. Growing up in this area, 
watching these mountains come up, it certainly is an important 
issue I think for us to resolve for the environmental and 
economic health of central Florida. All of you have devoted 
your professional lives to it, so at this time, it is an open 
mic, beginning with Dr. Shieh and letting Mr. Lloyd have the 
last word for our first hearing. Dr. Shieh.
    Mr. Shieh. OK. Well, as I said earlier, the result of the 
study has supported to concept of use of phosphogypsum in 
landfill applications and if we were able to carry out the 
field study, by today we should have some conclusive findings 
available to interested parties. If there were any adverse 
effects that needed to be addressed, we would be able to 
identify. So my true belief is if we have something on the way 
and be able to provide solutions to an existing problem, then I 
think we should go ahead and do it.
    I want to emphasize that this approach will not solve 
overall our phosphogypsum stack problem at all, but it will 
provide a solution to help minimize the existing problem. So we 
are still just waiting and waiting without any solution. I 
think we should go ahead and make a decision to do it. Thank 
you.
    Mr. Putnam. Thank you, Dr. Shieh. Dr. Chambers.
    Mr. Chambers. Thank you very much. I will be brief, I think 
I have said most of what I want to say.
    I would just like to reiterate from my examination of EPA's 
calculations and my own calculations that I believe the doses 
and the risks to even the most exposed person are small on an 
absolute basis and very small by comparison to the natural 
variation in dose from background radiation. And truly in that 
context, of very little concern.
    I would fully support Dr. Shieh and I would like to see 
some of these tests at least licensed so we can actually get 
and confirm one model or the other. And I really do not 
understand the lengthy process in licensing, and in my opinion, 
it would be unfortunate if the theoretical concerns over 
radiological risks were to prevent uses of phosphogypsum that 
would be of benefit to the people of the State of Florida and 
indeed the country. Thank you.
    Mr. Putnam. Thank you. Dr. Sumner.
    Mr. Sumner. Mr. Chairman, in summarizing, I would like to 
first of all draw the committee's attention to another use of 
phosphogypsum. Currently I hold a patent which was based on 
wallboard for making kitty litter out of gypsum. It is self-
clumping, odorless kitty litter. It is doing very well in the 
market based on recycled wallboard. But if we were to use 
phosphogypsum, it would be even better than recycled wallboard. 
So that is another potential use.
    I would like to just finally say that the maximum rate in 
agriculture should be figured into the risk assessment 
calculations as between 600 and 800 pounds of phosphogypsum per 
acre per year. That would be the maximum rate that it could be 
used in agriculture.
    Thank you, Mr. Chairman.
    Mr. Putnam. Thank you. Mr. Lloyd.
    Mr. Lloyd. I guess I always find it interesting when you 
re-invent the wheel. Dr. Sumner has said something about using 
phosphogypsum with chickens, with the waste from chickens. It 
has got to be at least 10 years ago that I told the DEP in 
Florida that was one of the ways to stop the odors from a 
chicken waste. If you will go all the way back into the 1900's, 
you will find the same sort of thing was practiced, both on 
dairy farms and other places, except they used what was then 
called normal super phosphate. But all of the gypsum, when you 
made normal super phosphate, ended up in the normal super 
phosphate. The gypsum was what knocked down the odors, what 
stopped the phosphorus leaching, what did all of the other 
things.
    So we are re-inventing something that we should have known 
a long, long time ago.
    I do think the landfill is one thing that ought to be put 
on a priority track. This is something that virtually every 
time you see somebody trying to build a landfill, everybody 
starts hollering and shouting do not build it near me. So one 
of the things that would be very beneficial, also very cost-
effective, would be to build landfills and use phosphogypsum.
    The Institute looks at things from so-called applied 
research point of view. One of the things in the area of 
phosphogypsum that we look at all the time is the economic 
impact. So when we start recommending one of these things, we 
are not only recommending it because we think it is 
environmentally sound, we know it is economically practical, 
and that it will contribute to the Florida economy. So this is 
one of the reasons we support all of the things we have done.
    One thing I would mention, and I am sure that Dr. Chambers 
will second me on this, every time we have been able to sit 
down with EPA in a full scale scientific discussion, we have 
ended up making some progress. But that is again--next to 
getting an exemption application, that is one of the hardest 
things to do that you have ever tried to do. We have succeeded 
twice in the last 20 years. So if there would be some way that 
we could do this and let some of the things that Dr. Sumner has 
seen, let some of the things that Dr. Chambers has seen be 
presented to these people, we could probably make some 
progress.
    I think for the opportunity.
    Mr. Putnam. I want to thank all of you before we adjourn 
this first hearing. I want to tell you how much we appreciate 
the expert testimony that you have given this subcommittee 
panel. It strongly reinforces the premise that utilizing 
phosphogypsum can be safe and less costly to taxpayers and as 
well as being environmentally sustainable. I appreciate your 
willingness to be here, some of you have traveled a great 
distance to share your knowledge and experience and thoughts 
and in some cases frustrations, and I would like to invite you 
to participate in the second hearing as well. So for those of 
you whose schedules allow, I would like for you to remain and 
participate in that hearing also.
    In the event that there may be additional questions that we 
did not have time for today or did not get to, the record will 
remain open for 2 weeks for submitted questions and answers. 
And with that, we will stand adjourned for 15 minutes and 
reconvene hearing two at 11:15. Thank you.
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned.]


        PHOSPHOGYPSUM: SHOULD WE JUST LET IT GO TO WASTE: PART 2

                              ----------                              


                         MONDAY, MARCH 15, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                        Bartow, FL.
    The subcommittee met, pursuant to notice, at 11:30 a.m., in 
the West Wing, Southwest Florida Water Management District 
Headquarters, 170 Century Drive, Bartow, FL, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representative Putnam.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Ursula Wojciechowski, professional staff member; 
Juliana French, clerk; and Matthew Joyner, district director.
    Mr. Putnam. The Subcommittee on Technology, Information 
Policy, Intergovernmental Relations and the Census will come to 
order. This is officially the subcommittee's second hearing on 
phosphogypsum entitled, ``Phosphogypsum: Should We Just Let It 
Go To Waste?''
    In 1989, the U.S. Environmental Protection Agency 
promulgated a rule determining that the commercial product of 
phosphogypsum was waste product and banned its use for any 
purpose whatsoever.
    Three years later, the EPA modified the rule to allow the 
use of phosphogypsum from north Florida for agricultural 
purposes.
    Since then, only one other rule has been promulgated. In 
1999, EPA raised the limit on the quantity of phosphogypsum 
that may be used for indoor research and development from 700 
pounds to 7,000 pounds and clarified sampling procedures for 
phosphogypsum removed from stacks for other purposes. This was 
a step in the right direction.
    Testimony provided for our first hearing, which we just 
concluded, suggests that the use of phosphogypsum can be 
favorable to farmers, cattlemen and taxpayers, particularly 
local governments, as a landfill cover, when used as a soil 
amendment, road base and again, landfill additive. 
Additionally, concern was expressed that the long-term adverse 
environmental effects of leaving phosphogypsum in stacks 
greatly exceeds any risks associated with its use for any 
purposes researched.
    A number of other issues came forward that we hope to 
explore in this second hearing, including the delays in 
permitting for additional research and the inability to 
communicate effectively with the policymakers.
    I would like to ask unanimous consent of the other 
subcommittee members to reseat the witnesses from our first 
hearing, so that we may benefit from a combined panel of 
expertise. Without objection, so ordered.
    And without delay, I welcome our witnesses and look forward 
to your testimony.
    As is the custom with the Government Reform Committee, all 
of our witnesses are sworn in. For those witnesses who were 
sworn in for the first panel, I would ask that you be sworn in 
again since this is technically a new hearing. And again, for 
any of our witnesses, if you have someone with you who will 
provide supporting testimony, slipping you notes, whispering in 
your ear, providing additional information for the benefit of 
the subcommittee, we would ask that they rise and be sworn as 
well.
    So with that, please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Putnam. I note for the record that all of the witnesses 
responded in the affirmative.
    Our first witness is Ms. Elizabeth A. Cotsworth, who is 
currently the Office Director of the Environmental Protection 
Agency's Office of Radiation and Indoor Air. She provides 
national direction for protecting people and the environment 
from harmful and avoidable exposure to radiation as well as 
protective measures and guidance for indoor air environments.
    Prior to joining the ORIA, Ms. Cotsworth was the Office 
Director of the Office of Solid Waste from 1997 to 2002, after 
holding a series of positions managing national hazardous and 
solid waste programs.
    She entered the EPA as a management intern in 1973, she 
holds a B.A. from Chatham College in History and an M.A. from 
the University of Virginia in Government and Foreign Affairs.
    Welcome to the subcommittee. You are recognized.

    STATEMENTS OF ELIZABETH COTSWORTH, DIRECTOR, OFFICE OF 
  RADIATION AND INDOOR AIR, OFFICE OF AIR AND RADIATION, U.S. 
 ENVIRONMENTAL PROTECTION AGENCY; HARLAN KEATON, ENVIRONMENTAL 
ADMINISTRATOR, BUREAU OF RADIATION CONTROL, FLORIDA DEPARTMENT 
  OF HEALTH; AND DICK ECKENROD, EXECUTIVE DIRECTOR, TAMPA BAY 
                            ESTUARY

    Ms. Cotsworth. Thank you, Mr. Chairman, for the invitation 
to appear here today. I will comment on the approach that the 
Environmental Protection Agency has implemented over the last 
15 years to address the issue of protection of human health and 
the environment with regard to phosphogypsum.
    EPA has specifically regulated phosphogypsum since 1989 
with a national emissions standard for hazardous air pollutants 
called NESHAPS, authorized under Section 112 of the Clean Air 
Act. Radionuclides are listed there as a hazardous air 
pollutant. Radionuclides are a known cause of cancer and 
genetic damage. It is the processing of raw phosphate ore that 
specifically concentrates radionuclides into the phosphogypsum. 
Phosphogypsum contains naturally occurring radiation, as well 
as its decay products such as radium-226 and radon. Due to its 
health risk, its radon gas emissions in particular are the 
target of our NESHAPS regulation.
    We strive to provide maximum feasible protection against 
risks to health from hazardous air pollutants, including 
radionuclides. We do so by trying to limit exposures such that 
an individual's lifetime excess cancer risk level is really no 
more than 1 in 10,000.
    In our 1989 regulation, EPA specified stacks as the safest 
for phosphogypsum management. It is the use of stacks that 
provide appropriate risk protection with an ample margin of 
safety, as is required by the Clean Air Act.
    Originally, there were no provisions for allowing 
alternatives of the material, but petitioners approached us 
afterwards for reconsideration. We determined, considering all 
of the information available on potential exposures and the 
associated risk, that certain uses may be considered acceptable 
as long as those uses are restricted to limit the estimated 
lifetime risk to approximately 1 in 10,000.
    We now allow three types of activities using phosphogypsum.
    First, outdoor agricultural uses. For example, as a 
conditioner of soils with high quantities of salt or low 
concentrations of calcium or other nutrients, as long as the 
average radium-226 concentration is less than 10 picocuries per 
gram. For example, peanut farmers in Georgia apply 
phosphogypsum to their fields to strengthen peanut shells. 
Also, when several counties in North Carolina recently found 
farmland soils to have high salinity, in part because of 
Hurricane Isabel.
    Second, indoor research and development activities using up 
to 7,000 pounds of phosphogypsum; for example, to study the 
production of road base and building materials.
    And third, other alternative uses that are approved by EPA 
on a case-by-case basis.
    Some activities do not meet the criteria for ensuring 
safety and health protection on a national basis. For example, 
we found that a generic national exemption for road building 
material could not meet the risk criteria. This is because of 
radium-bearing dusts, which are dispersed as the road surface 
degrades and radon emissions from the road itself. In addition, 
when road material is eventually removed, disposed or 
abandoned, additional exposures can occur.
    As we review and consider the safety of new potential 
phosphogypsum uses, we work in partnership with our colleagues 
in State government, such as the Florida Department of 
Environmental Protection. In addition to potential exposure, 
our review carefully considers impacts on State legal authority 
and interests such as groundwater protection from any 
alternative use.
    We have received several petitions requesting EPA approval 
of alternative uses for phosphogypsum. We are currently 
reviewing a petition for its use as a landfill cover at a 
municipal solid waste landfill in Brevard County, FL. We hope 
to have a response on the completeness of this application in 
the next month to 6 weeks. We are also simultaneously in the 
process of developing much needed guidance to further and 
clearly explain the criteria discussed in our regulations, 
specifically providing our sense of what information is 
required for a complete application that can then be evaluated 
for its support of a publicly and scientifically defensible 
decision.
    We stress the importance of addressing radiation risk and 
giving confidence perhaps through monitoring, that other 
constituents in the waste, for example heavy metals, do not 
pose additional environmental concerns. Additionally, we seek 
to identify the benefits clearly associated with the 
alternative use and consistent with the principles of radiation 
protection, assure that potential exposures are justified and 
legitimate.
    Managing phosphogypsum in stacks consistent with existing 
regulations is the best current management practice for most 
phosphogypsum. But we continue to be open to consideration of 
other beneficial and protected uses and remain supportive of 
research. Nevertheless, petitions submitted to the agency for 
such uses must clearly and fully demonstrate that the 
alternative use will be at least as protective as keeping the 
material in those stacks.
    This concludes my prepared statement. I will be happy to 
answer any questions. Thank you.
    [The prepared statement of Ms. Cotsworth follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.035
    
    [GRAPHIC] [TIFF OMITTED] T5739.036
    
    [GRAPHIC] [TIFF OMITTED] T5739.037
    
    [GRAPHIC] [TIFF OMITTED] T5739.038
    
    Mr. Putnam. Thank you very much, Ms. Cotsworth.
    Our second witness for this hearing is Mr. Harlan Keaton. 
Mr. Keaton is an environmental administrator for the Bureau of 
Radiation Control, a branch of the Florida Department of 
Health.
    Mr. Keaton has been an employee of the Department for 33 
years. The last 20 years, he has served as the administrator of 
the statewide environmental radiation surveillance and 
radiological emergency response programs. He has received the 
Hammer Team Award from former Vice President Gore and the Board 
of Directors Award for Outstanding Achievement in the field of 
radiation protection from the Conference of Radiation Control 
Program Directors, of which he is an associate member.
    Additionally, he is a member and former two time president 
of the Florida Chapter of the Health Physics Society. Mr. 
Keaton was a member of the Technical Advisory Committee at the 
Florida Institute of Phosphate Research and Chaired the E-35 
Marson Committee of the Conference of Radiation Control Program 
Directors.
    Welcome to the subcommittee. You are recognized.
    Mr. Keaton. I would like to describe today what the 
Department of Health's limited role is regarding naturally 
occurring radioactive material in the environment, and 
specifically as it is associated with the phosphate mining 
industry.
    The U.S. Environmental Protection Agency has primary 
responsibility for developing rules and national standards for 
handling phosphogypsum and waste issues. The Florida Department 
of Environmental Protection, under the authorization from EPA, 
also looks closely at the proper disposal and beneficial use of 
this material. As part of the Department of Health's mission to 
promote and protect the health and safety of all residents of 
Florida, we have a limited role in the monitoring of 
phosphogypsum. Through our Bureau of Radiation Control, we 
regulate the use of radiation and radioactive materials in 
medicine and industry. Please note, therefore, that our Bureau 
is only looking at the radioactive issues associated with 
phosphogypsum. We understand that there are also other 
environmental contaminants that can impact groundwater from the 
disposal and use of phosphogypsum, such as sulfates, sodium, 
iron, fluoride and trace heavy metals. These contaminants 
should also be evaluated when making beneficial use decisions 
about this waste.
    The Bureau also has several environmental monitoring 
programs, including one that monitors the radiation levels on 
phosphate lands both before mining and after land reclamation. 
This program has been going on since 1986. The data we have 
gathered indicates a small--a very small--increase in radiation 
levels following reclamation of mine lands. However, please 
note that the pre-mined and reclaimed lands are not identical 
in makeup to the phosphogypsum, although there are many 
similarities, including the presence of naturally occurring 
radioactive materials.
    Although the Department of Health does not regulate the 
disposal or the use of phosphogypsum and has not been directly 
involved in research regarding the potential uses and possible 
health risks from the use of phosphogypsum, we do conduct some 
testing in the mining areas. Our staff have also served as 
advisors to FIPR to provide input on radiation related matters 
and advice on appropriate research areas. FIPR was established 
by the Florida Legislature to initiate, conduct or sponsor 
studies to minimize or rectify any negative impact of phosphate 
mining and processing on the environment and improve the 
industry's positive impact on the economy. FIPR is a public 
entity located within the Florida Department of Education.
    One aspect of our direct involvement in assessment of 
health risks from naturally occurring radiation in the 
phosphate mining areas is the risks from indoor radon levels. 
In an effort to control indoor levels of radon, both the EPA 
and the State of Florida began developing mitigation techniques 
to be used in existing buildings.
    In 1978, the State also embarked on a project to develop 
radon-resistant construction techniques for new homes built on 
reclaimed phosphate lands. Standards for new construction and 
the mitigation of radon in existing construction were developed 
between 1989 and 1995 by the Department of Community Affairs. 
These standards, called the ``Florida Standards for Radon-
Resistant Construction'' are also included as appendices of the 
Florida Building Code. Again, although this effort is not 
directly related to the use of phosphogypsum, it shows that 
research can be performed and efforts can be taken to mitigate 
the risks associated with naturally occurring radioactive 
material and ensure that risk is at a safe level.
    Studies of phosphate workers have not shown abnormal cancer 
rates and health reviews of populations living in previously 
mined areas do not indicate an increase or excess of lung 
cancers. More extensive research about the effects of exposure 
to phosphogypsum is needed.
    In conclusion, it also makes sense to aggressively research 
appropriate and safe uses for this plentiful product. In 
Florida alone, we have approximately 1 billion tons in 24 
stacks, with an annual product of 30 million new tons of 
phosphogypsum. We are interested in any scientifically valid 
research that shows possible health risks or lack of health 
risks associated with potential uses of phosphogypsum. We 
believe this is a significant issue that we could understand 
better through more research, research that can enable us to 
determine appropriate uses for this material and what steps are 
needed to protect the public's health and the environment.
    We believe that the current practice of stacking the 
phosphogypsum has potential environmental and public health 
risks, as evidenced by unintended releases and spills and the 
recent need to dispose of millions of gallons of gypsum and 
acidic wastewater. Last year, the Federal Government granted 
the DEP permission to dispose of the treated wastewater in the 
Gulf of Mexico. We therefore support and encourage aggressive 
research to determine safe uses of phosphogypsum, while 
protecting the health and safety of the residents of Florida. 
Through this research, developments may allow for better roads, 
more efficient landfill covers, additional needed sulfur for 
the soil, and construction materials like safe glass, thereby 
providing a residual benefit to society.
    I am happy to answer any questions that you may have.
    [The prepared statement of Mr. Keaton follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.039
    
    [GRAPHIC] [TIFF OMITTED] T5739.040
    
    [GRAPHIC] [TIFF OMITTED] T5739.041
    
    Mr. Putnam. Thank you very much, Mr. Keaton.
    Our third witness for this hearing is Mr. Dick Eckenrod. 
Mr. Eckenrod is the executive director of the Tampa Bay Estuary 
Program.
    Since joining the Tampa Bay Estuary Program in December 
1990, Mr. Eckenrod has directed the development of an 
innovative management approach for Tampa Bay that seeks to 
balance economic and environmental concerns.
    Before coming to TBEP, he was part of an inter-disciplinary 
team of scientists and engineers employed by the Southwest 
Florida Water Management District.
    From 1984 to 1987, he advised the Manatee County Commission 
on natural resources issues as director of the Department of 
Land and Natural Resources. His responsibilities included 
mining regulation and management of county-owned conservation 
areas. He served the county as phosphate mining coordinator 
from 1980 to 1984.
    He has also worked in the private sector as a specialist in 
water quality management and environmental impact assessment 
and an environmental engineer with various consulting firms.
    A member of the Water Environment Federation, Mr. Eckenrod 
serves on the Executive Steering Committee of the Agency on Bay 
Management and a number of other environmental advisory and 
coordinating committees in the Tampa Bay region.
    Welcome to the subcommittee. And you are recognized.
    Mr. Eckenrod. Thank you, Mr. Chairman, for this opportunity 
to address the subcommittee on the subject of beneficial uses 
of phosphogypsum and some of the environmental issues 
associated with those uses. I am Dick Eckenrod, executive 
director of the Tampa Bay Estuary Program.
    Tampa Bay is 1 of 28 estuaries of national significance 
participating in the NEP established pursuant to Section 320 of 
the Clean Water Act. Tampa Bay was designated an NEP in 1990 by 
President George Bush and has subsequently developed a cleanup 
and restoration plan for Tampa Bay. That plan is now being 
implemented by the program's partners in the public and private 
sectors.
    The Estuary Program is an independent special district of 
the State of Florida, organized through an Interlocal Agreement 
under the authority of Section 163.01 of the Florida statutes. 
The nine-member governing body of the Estuary Program, known as 
its Policy Board, consists of elected officials or senior 
administrators from the cities of Tampa, St. Pete, Clearwater, 
the counties of Hillsborough, Pinellas and Manatee along with 
U.S. EPA, the Florida Department of Environmental Protection 
and the Southwest Florida Water Management District.
    The Estuary Program does not generally take positions on 
environmental permits or other regulatory matters, but does 
endeavor to serve as a source of reliable information and 
unbiased advice to all interested parties. It is in that spirit 
that I offer the following comments.
    Among the priority issues addressed by the Estuary Program 
are controlling excessive nitrogen loading to Tampa Bay in 
order to maintain water clarity and foster expansion of 
submerged aquatic vegetation or seagrasses in the bay; reducing 
chemical contamination of bay sediments and protecting 
relatively clean areas of the bay from contamination; and 
developing a long-range dredged material management plan for 
the bay that will minimize adverse environmental impacts and 
maximize beneficial uses of dredged material.
    Reusing or reclaiming liquids and solids that in the past 
were considered waste materials and threats to the bay is a key 
element of the Estuary Program's strategy to achieve its water 
quality and habitat restoration goals. The Program's local 
government partners, for example, have made major strides 
toward nitrogen load reduction by reclaiming domestic 
wastewater for irrigation of residential, commercial, 
agricultural and public properties. In addition to reducing 
nitrogen loadings to the bay, reclaiming wastewater is helping 
offset demands on ground and surface water supplies for public 
use.
    Another Estuary Program partner, the Corps of Engineers, is 
selectively using dredged material from ship-channel 
construction and maintenance to create emergent wetland 
habitats, restore eroded beaches and improve the quality of 
submerged habitats in previously disturbed areas. Sediments 
once regarded as spoils or wastes are now being transformed 
from environmental liabilities into environmental benefits for 
Tampa Bay.
    Managing the huge and ever-growing inventory of 
phosphogypsum in Florida similarly offers opportunities as well 
as challenges. Using all or a portion of the estimated 30 
million tons of phosphogypsum generated each year for safe and 
appropriate uses could reduce the volume of contaminated 
process water that will ultimately need to be disposed of. And, 
as the recent experience at the Piney Point facility in Manatee 
County has shown, reducing the volume of stored process water 
also reduces the potential magnitude of accidental releases. 
Options for beneficial use of phosphogypsum should be actively 
pursued along with the research needed to reasonably assure 
protection of public health and the environment.
    In addition to potential impacts on nutrient loads, 
evaluation of potential beneficial uses of phosphogypsum in the 
Tampa Bay watershed should take into account toxic contaminants 
that have been documented at various levels of concern in Tampa 
Bay. An ecological and human risk assessment conducted for the 
Estuary Program by Parsons Engineering Science in 1996 
concluded that polychlorinated biphenyls, polycyclic aromatic 
hydrocarbons and specific metals--chromium, copper, mercury, 
nickel and silver--were priority contaminants of concern in one 
or more segments of Tampa Bay. Potential human health and 
environmental risks of contaminants of concern associated with 
phosphogypsum should also be thoroughly assessed before 
specific uses are approved.
    In summary, beneficial uses of materials formerly regarded 
as wastes are now making important contributions to the 
recovery of the Tampa Bay ecosystem. Potential beneficial uses 
of phosphogypsum should be similarly explored, together with 
appropriate health and environmental risk assessments.
    That concludes my prepared remarks.
    [The prepared statement of Mr. Eckenrod follows:]

    [GRAPHIC] [TIFF OMITTED] T5739.042
    
    [GRAPHIC] [TIFF OMITTED] T5739.043
    
    [GRAPHIC] [TIFF OMITTED] T5739.044
    
    Mr. Putnam. Thank you very much, Mr. Eckenrod.
    And before we go to questions, I overlooked a small item 
when we were administering the oath. If the individuals who 
were sworn in outside of our seated witnesses would please rise 
and identify themselves and their title for the record. So 
everyone who was sworn in outside our witnesses, if you would 
please come to the front row and we will start on the left and 
identify by name and position or title.
    Mr. Rosnick. My name is Reid Rosnick, I am an environmental 
scientist with the Environmental Protection Agency. I am in the 
Office of Radiation and Indoor Air in Washington, DC.
    Mr. Putnam. If you could step forward, please, so that we 
can get this for the record.
    Mr. Button. My name is Rick Button, I am a health physicist 
with the EPA, Region IV in Atlanta, GA with the Quantitative 
Technical Support Section.
    Mr. Putnam. Thank you.
    Mr. Burkee. I am Brian Burkee, I am a research director 
with the Florida Institute of Phosphate Research.
    Mr. DeGrove. I am Bruce DeGrove, I am director of 
regulatory affairs for the Florida Phosphate Council in 
Tallahassee.
    Mr. Posey. I am Stan Posey, manager of environmental 
affairs for PTS Phosphate at White Springs.
    Mr. Putnam. Thank you very much, and we will begin with our 
questions.
    Ms. Cotsworth, your testimony--you said that the concern of 
the EPA was to make sure that any increased exposure was 
justified and legitimate. Did anything that was presented in 
hearing one lead you to believe that there is a scientific 
basis for changing the treatment of phosphogypsum from being a 
waste product to being a commercial product?
    Ms. Cotsworth. We would be happy to sit down with the 
members of that panel to discuss specifically the points that 
they made, to work with them to determine if there is 
sufficient early information that would support a petition to 
the agency under the regulatory authority that I cited, and to 
work with them, again, in terms of what we require for a 
complete evaluation and what we would require in order to be 
able to thoroughly assess and make again a publicly defensible 
and scientifically defensible conclusion or decision.
    Mr. Putnam. So they have your commitment then that you and 
your people will meet with them and their people to do this?
    Ms. Cotsworth. We would be glad to. I know there have been 
frustrations, I think on both sides, but we certainly would be 
willing to sit down and be as clear and specific and 
informative as we can be.
    Mr. Putnam. Until 1989, phosphogypsum was treated as any 
other item of commerce and sold for agriculture and was used 
locally, as was discussed in the first hearing, for any number 
of construction projects. What was the basis for the shift in 
policy from an item--where an item of commerce was suddenly 
treated as a waste product and subject to regulation?
    Ms. Cotsworth. We were implementing the requirements of the 
Clean Air Act to control the risks of hazardous air pollutants, 
and our source controls were established as the legislation 
requires us to do consistent with all hazardous air pollutants. 
And in the 1989 rulemaking, we advised the public that we had 
found a basis to require management in stacks because of the 
potential for it to be incorporated into other products and be 
defused throughout the country such that we would be unable to 
ensure that the rate on emissions did not present an 
unreasonable risk. That was the basis.
    Mr. Putnam. And an unreasonable risk in your opinion would 
be one that exceeds 1 in 10,000?
    Ms. Cotsworth. Generally yes, the risk range that we used 
consistently for Clean Air Act regulatory decisions is between 
10 to the minus 6 which is one in a million risk to the 1 in 
10,000 number generally. And that 1 in 10,000 is also a risk 
level that we use in many other of our regulatory programs.
    Mr. Putnam. The risk analysis that you used employed an 
assumption of 70-year residency for occupants of the 
hypothetical home. That is a value that is not supported by any 
available data and shorter residency times are used by your 
agency in other risk calculations. So why was this item chosen 
for the 70-year residency risk calculation?
    Ms. Cotsworth. The 70-year residency is actually, again, 
consistent with the assumption that we use in risk analyses for 
all of our Clean Air Act rulemakings and for many of our other 
rulemakings and regulatory activities. There are some decisions 
where a 30-year residence time is included but for the 
regulatory purposes, we generally use a 70-year residence time. 
And we have data that suggests that it is not inappropriate to 
use for phosphogypsum and farmer residence time.
    Mr. Putnam. You have studies that suggest that it is not 
inappropriate to use the 70--what studies were done to justify 
that action?
    Ms. Cotsworth. We have conducted studies, I believe that 
were associated with the 1992 and possibly the 1989 regulatory 
actions. I would be happy to go back and research and submit 
those particular studies and statements for the record.
    Mr. Putnam. Well, I am just trying--the Federal Register in 
1989 does not specify a reason for the ban, so I think it is 
important to know what action--what studies precipitated that 
action. And Dr. Chambers, in the first hearing, stated that 
your own handbook uses a 30-year risk model. Could you explain 
that difference?
    Ms. Cotsworth. I believe that the handbook that is being 
referred to is used in regard to cleanup decisions associated 
with our so-called Superfund program. I cannot absolutely say 
for sure, but I believe that is the reference. But in terms of 
most of our regulatory decisions, including those under the 
Clean Air Act, we do use a 70-year timeframe.
    Mr. Putnam. For actions under the Clean Air Act, you use 
the 70-year timeframe. And is that directed by law or is that 
an internal rule?
    Ms. Cotsworth. I believe it is an internal approach, I 
cannot state with certainty. I will be glad to again check into 
that and get back to the staff.
    Mr. Putnam. Why would there be such a dramatic risk 
calculation for a Superfund site which can be anywhere in a 
community and, you know, through recent legislation on brown 
fields and everything else, subject to other uses--why would 
there be such a dramatically different risk calculation for 
that than there is for Clean Air Act compliance?
    Ms. Cotsworth. Well, the difference is largely a cleanup, a 
remedial situation dealing with contaminants that already exist 
in the environment as opposed to rulemaking, national generic 
level rulemaking, which are intended to be protective and 
preventative in nature.
    Mr. Putnam. The calculations that you did use averaged the 
amounts of phosphogypsum used for soil treatment in California 
and in fertilization in Georgia and arrived at an annual 
application rate of 1,350 pounds per acre per year. Is there a 
practical basis for that application rate that you all used? 
Are you aware of any farmer who uses that much phosphogypsum?
    Ms. Cotsworth. The determination was based on data and 
information that was submitted to the agency and that is 
included in our background information document. And again, we 
were developing a national regulation, which is generic in 
scope and application rates across the country do vary, 
according to crop type, soil conditions, purpose of the 
application. And for us to be generally conservative and take 
into account the possibility of reasonable worst case exposure 
assumptions, we did use data and information provided from 
California in determining the application rates.
    Mr. Putnam. Is there not an ability for you--you referred 
to the general application rate in a general generic rule to be 
applied nationwide. Is there not a basis for you to develop or 
promulgate a regional rule that would apply to sodic soils in 
the western United States and a different one that would apply 
to the treatments that are used in the southeastern United 
States, just as other aspects of EPA promulgate different 
labels for different crops in different regions?
    Ms. Cotsworth. It is possible; however, it becomes very 
difficult to implement, difficult to enforce and it transfers, 
in large part, the burden of implementation to the farmers and 
the small agribusinesses that would then have to spend the time 
and effort to be careful in regard to the use of a product as 
opposed to us regulating the content from the start.
    Mr. Putnam. I appreciate your sympathy for the farmer and 
small business, but EPA has never hesitated to transfer that 
burden in the past.
    The soil treatment and fertilization, two unrelated 
practices, why were those two unrelated practices used to 
justify the ban for fertilization? Again, would it not be 
reasonable to have a rule for fertilization and a rule for soil 
treatment?
    Ms. Cotsworth. Again, as I just indicated, the agency 
concluded that in order to provide protection for the possible 
most reasonable worst case scenario, that it was not 
appropriate to make that distinction.
    Mr. Putnam. That is a fairly subjective thing. How do you 
know what a reasonable worst case scenario is? I mean, if you 
use this high concentration for sodic soils but you only do it 
once and then you are done for decades, if not forever, and 
then in the case of the peanut growers, they are using it every 
third year, is it the judgment of EPA's scientist, is it peer 
reviewed? How do you come about determining a reasonable worst 
case scenario?
    Ms. Cotsworth. It is based on a risk assessment that is 
conducted according to the risk methodology that is in general 
use across EPA. There may have been some changes in methodology 
improvements over time since the 1989 and 1992 rulemakings; 
however, the risk assessments that were conducted at that time 
were consistent with all of the agency's practices and policies 
regarding risk assessment, including the scenarios, media 
transfers and how to use our data. Those risk assessments are 
normally, as with all of our background documents, are part of 
the public docket that is associated with public comment and 
notice rulemaking. They should have been available for public 
review at the time of the issuance of both the proposed and the 
final regulations.
    Mr. Putnam. Well, let us come back to Florida for a second. 
What is the basis for banning north Florida phosphogypsum for 
roads but not for agricultural purposes when the road bed use 
has a lower risk than agricultural use? In other words, you 
have said it is OK to spread it on the fields that in a rapidly 
urbanizing State have a high risk of being homes in our 
lifetime, but banned it from a road bed usage, which is 
probably--which is highly unlikely in this State and most any 
other. What is the basis for that?
    Ms. Cotsworth. Well, we did evaluate, as I said, 
generically road building in the 1994 regulation and we did 
find that certain exposures would lead to excess cancer rates, 
in excess of the risk range that we specified, and that in fact 
road bed usage did have a higher risk than actually 
agricultural usage.
    Mr. Putnam. What roads were you testing to make that 
determination, what tests, what studies indicated that the 
cancer rate--the risk rate would be greater?
    Ms. Cotsworth. The studies are detailed in our 1992 
background information document. I apologize, I cannot 
personally speak to the specific studies that are accounted for 
here.
    Mr. Putnam. Does your colleague know?
    Voice. No, I am sorry, I do not. I would have to look 
through the actual background information.
    Mr. Putnam. Well, could you do that while we move on and we 
will come back to you.
    Mr. Lloyd, do you know what studies the EPA used for their 
1994 rule?
    Mr. Lloyd. Some of the things that are mentioned we have 
never been able to find in the BID documents, so I do not know. 
We would be interested in finding the data that we requested in 
1995 as to how they did the risk assessments for the 1992 rule. 
We have never been able to get the documents to show what the 
actual calculations were and it would be appreciated if we 
could get them.
    Mr. Putnam. Is that type of document available to the 
public, Ms. Cotsworth?
    Ms. Cotsworth. The public record for that rulemaking should 
still be available. What I cannot personally attest to is 
whether the documents or calculations that were just referred 
to are in that rulemaking record. Again, we do have high 
standards for the documentation and technical support documents 
to be included in our public docket and in our--and referenced 
in our preambles to our regulations. I apologize that, not 
having been with that office when the 1989 and 1992 regulations 
were promulgated, and at this point I have not seen those 
entire rulemaking dockets to be able to say specifically 
whether what was just alluded to is there, but I would 
certainly hope so.
    Mr. Putnam. I would hope so too and I will make this my 
official request for those records and supporting documents and 
working papers as well, and we look forward to receiving those.
    Why does EPA make atypical assumptions when calculating 
risk assessments for phosphogypsum in the 1992 ruling that are 
as unreasonable as those used in the 1989 rule that require 
correction only after a successful challenge?
    Ms. Cotsworth. Again, the regulatory process allows for 
public input, public participation, particularly in regard to 
the way our proposed and then final regulations are crafted, 
giving people the opportunity to comment on the technical 
information upon which our decisions are based. Certainly the 
additional input that was received by the agency post-1989 was 
found to be useful for making subsequent regulatory 
modifications and we always remain open to new information, new 
data for consideration as to whether we need to improve or 
change our regulations, or in this case, because we have a 
petition process, to be able to use the petition process to 
exercise regulatory flexibility.
    Mr. Putnam. And how long does that regulatory flexibility 
usually take to work its way through the process?
    Ms. Cotsworth. It probably takes longer than the 
petitioners here would have liked. And we have not approved any 
petition to date. In part, that is probably due to change over 
in our staff and lack of clarity for the petitioners as to what 
we really need in a petition application. In some part, it is 
also due to the amount of time that it has taken for 
petitioners to respond to our data requests and our requests 
for more analyses.
    Mr. Putnam. And do you know how long it took them to 
respond to your requests, the petitioners? How long did it take 
for them to respond to your requests for additional 
information?
    Ms. Cotsworth. I believe in some cases there has never been 
a response and in some cases, it has taken many months.
    Mr. Putnam. And with regard to Dr. Shieh's request for a 
permit to move forward with phase III, that was a 4-year and 
still counting pending request--it seems to me this is 
unnecessarily adversarial. You have a group of credentialed, 
published, highly regarded scientists pursuing a line of 
research. In other words, they are seekers of information, of 
knowledge, of hopefully a solution to what we believe is a 
problem in the stacks. It would seem to me that at bare minimum 
for research purposes, the EPA would embrace that type of 
search for knowledge. Recognizing your own limitations as an 
agency and personnel constraints and funding constraints and 
everything else and the myriad of environmental issues you have 
to deal with, it would seem that when you have a group like 
this, and undoubtedly they are not the only ones, that that 
would be something that you would really embrace and join hands 
and move forward to solve an environmental problem.
    I mean, I think everyone would admit that is not really how 
it is. I mean it has become this adversarial issue for years. I 
mean it predates me but as recently as 5 years ago in the 
legislature when we tried to work through this. You can never 
find anybody to give you an answer, you can never find anybody 
that seems really interested in working to make it work. And 
that is the rub, that is the real frustrating part here.
    We have all kinds of questions here about why things went 
the way they did and why they have not been answered and why we 
are waiting 4 years just to be able to dig a plot to research 
landfill material. I mean we are not talking about cancer drugs 
here, we are not talking about distributing something to every 
mouth in America, we are talking about allowing research to go 
forward. And for some reason, whether it was you or your 
predecessor or the agency's culture, there is this adversarial 
issue. Help me understand that or please convince me that is 
not the case.
    Ms. Cotsworth. I agree, it has been adversarial and what I 
believe and I believe the new administrator wants to make sure 
is that there is collaboration and honest dialog. You talked 
about the 4-years for review of Dr. Shieh's petition. Last 
June, members of my staff came here and had a meeting and 
basically indicated that what we had already in hand did not 
discuss the very issue of most concern to us, which was 
radioactivity. We have had a resubmission, additional 
information since December of last year, and we are actively 
reviewing that petition right now and at the same time trying 
to develop useful and clear guidance for all the petitioners in 
regard to what we expect relatively to again a complete 
application and one that will then support a final and clear 
decision.
    I too believe that the process should be finite in terms of 
time, it should be transparent for everyone, the petitioners as 
well as others, including the general public who may have an 
interest, and that a decision is rendered. It may not 
necessarily be the decision that someone wants but I want to be 
able to give someone a final yes or no answer on the petition 
and to be able to tell them clearly why it was the answer that 
it was, so that they can understand and that we can again 
defend it in the public view and it will withstand scientific 
and technical challenge.
    Mr. Putnam. There clearly are a lot of reasons why this has 
become a problem. But a change of administration is not one. 
When you look at the EPA and the number of employees that 
change from administration to administration, no matter who the 
President or the Administrator is, it is minimal. I mean this 
is a professional staff issue. The political appointees are not 
running road tests, road bed tests on radium-226. Regardless of 
who the Administrator is or who is in the White House, there 
ought to be some cultural openness to research and the search 
for answers.
    Prior to EPA's 1989 rule banning the use of phosphogypsum, 
EPA conducted public hearings on whether or not to put layers 
of soil on top of the stacks to reduce the radon emanation that 
might be harmful to the people living in the vicinity of the 
stacks. Those public hearings concluded that the risks did not 
justify that action.
    Now if the risk of having a multi-million ton concentration 
of phosphogypsum did not justify sprinkling top soil over it to 
reduce radon emanations, why would the risks exist in 
sprinkling phosphogypsum in central Florida agricultural fields 
or in building a road bed out of it?
    Ms. Cotsworth. I am not personally aware of the public 
meetings or hearings to which you refer. So I am unable to 
comment on that. But certainly as we consider additional uses, 
we have to look at a variety of scenarios and pathways through 
which people are exposed. And the presence of phosphogypsum in 
roads and agriculture can sometimes present different exposures 
than stack management and each one needs to be evaluated 
accordingly and appropriately.
    Mr. Putnam. But you said radioactivity is the real issue. I 
mean that's really the issue.
    Ms. Cotsworth. Right.
    Mr. Putnam. And so 40 million tons stacked, to me just 
common sense would say that radioactivity would be a greater 
issue in that concentrated form at that scale--that has to be a 
larger issue than when it is evenly spread in a road bed or on 
an agricultural field. And these are from the public hearings 
that your agency had prior to the 1989 rule.
    Ms. Cotsworth. Again, I am just not familiar with those 
public hearings and the situation that is being described, but 
again, it is looking at different exposure scenarios and 
certain management controls that are in place relative to the 
stacks that would not be present in other uses.
    Mr. Putnam. You were provided these questions in advance of 
this hearing.
    Ms. Cotsworth. That is right, and between Friday afternoon 
and today, I could not find any reference to the hearings that 
were mentioned.
    Voice. Congressman, I could provide some light on that 
question.
    Mr. Putnam. Please. Speak into the mic, come forward please 
and speak into the mic.
    Mr. Button. Richard Button. With regard to the soil on top 
of the stack, what we found is that on a stack, due to weight 
and volume, it creates its own cap, so putting soil on top of a 
stack does not reduce the radon emissions any more. And we find 
that the radon emissions tend to be greater on the side where 
the cap is broken up, which would explain why if you spread it 
out on farmland, the radon emissions would be higher than or 
equal to what they would on top of the stack.
    Mr. Putnam. Thank you.
    When did EPA last visit the phosphogypsum stacks to get a 
read?
    Ms. Cotsworth. I believe staff from my office, during their 
visit in June of last year, actually visited a stack.
    Mr. Putnam. And did you test their level of radiation?
    Ms. Cotsworth. It was not a compliance visit or any kind of 
enforcement visit, it was for the purpose of information 
sharing relative to the petition process and getting a better 
understanding and appreciation of the problem and the issue.
    Mr. Putnam. And as part of that information sharing, did 
you all test the stack?
    Ms. Cotsworth. No, not that I am aware of.
    Mr. Putnam. Mr. Lloyd, do you know if they tested the stack 
while they were here?
    Mr. Lloyd. The stacks were last tested prior to 1989, as 
Rick can attest to.
    Mr. Putnam. And not since then?
    Mr. Lloyd. Not at all that I know of.
    Mr. Putnam. If radioactivity is the issue, and we have 24 
stacks around the State, it is not a big enough issue to have 
an ongoing radiation testing program?
    Ms. Cotsworth. The NESHAPS that I referred to has been 
delegated to the State of Florida and I believe any monitoring 
would be conducted by the State. We have not--and I will look 
to Dick for some confirmation on this, I do not believe we, 
EPA, have done any oversight inspection or testing.
    Mr. Button. That is correct.
    Mr. Putnam. OK. You are from the air quality/radiation 
piece of EPA, is that correct?
    Ms. Cotsworth. Yes, I am.
    Mr. Putnam. Is there another piece of your agency that 
deals perhaps with water quality that is concerned about the 
concentration of these stacks and the Piney Point incident and 
the potential ecological hazard that stacking phosphogypsum 
presents?
    Ms. Cotsworth. I think it is safe to say yes, we are all 
concerned about what happened last year at Piney Point.
    Mr. Putnam. Well, but it seems to me that your piece of the 
EPA has determined that--at least in 1989, you determined that 
it is safer to stack it up than it is to spread it out. But is 
there another office in another wing of Atlanta's regional 
headquarters or some place in Washington where the water 
quality people are saying we have a real problem here. We have 
hundreds of millions of gallons of acidic water building up in 
these stacks that we might need to do something about. Is there 
coordination within EPA between air quality and water quality 
as it relates to gyp stacks?
    Ms. Cotsworth. There is within the regional office, which 
was the group that dealt primarily with the Piney Point 
situation. I know Mr. Button here was involved as well as our 
Region IV emergency response personnel. I have not been 
approached by the EPA water office in regard to phosphogypsum 
during the time that I have been office director. But I would 
certainly not only coordinate with other State and appropriate 
agencies in regard to a phosphogypsum use application, but I 
would have to consult with my counterparts across EPA in terms 
of any concerns or issues that would arise that deal with their 
statutory responsibilities and the programs that they 
implement.
    Mr. Putnam. Mr. Button, could you please come back to the 
microphone, since you were part of the emergency response to 
gyp stack management that occurred last summer?
    Are you aware of a multi-disciplinary approach to managing 
these?
    Mr. Button. Yes, when Superfund emergency response in 
Region IV Atlanta, they were asked by the State of Florida to 
provide assistance and when they found that phosphate plant had 
some low level radiation, I met with them and talked with them 
and gave them some input on the radiation risk associated with 
it, and also talked to their water people and everybody else 
that could provide input for their response.
    Mr. Putnam. Are you aware of any reports that the water 
people, as you put them, any conclusions that they arrived at 
that perhaps managing the stacks as we do today might not be 
the best approach from a water quality perspective?
    Mr. Button. No, I am not, but the Superfund emergency 
response people may be. I am not aware of that.
    Mr. Putnam. Could you please, when you get back to the 
office, see if that information exists? I would like to make 
that official information request.
    Mr. Button. Yes, I can do that.
    Mr. Putnam. So we can review their conclusions as it 
relates to their opinion of our management of phosphogypsum 
stacks.
    Mr. Button. Well, they officially made a decision to dump 
the water into the bay, so I'm sure there is some documentation 
to support that. So yes, I can followup on that.
    Mr. Putnam. And assuming another rainy season, we might 
have to dump some more into the bay. So it becomes an ongoing 
water quality environmental hazard that does not appear as 
being necessarily shared with the air quality folks. Thank you.
    Mr. Keaton, in your testimony, you mentioned that the State 
of Florida developed standards for radon resistant 
construction. Could you describe those in some detail and tell 
us how or if they might foil the 70-year residency assumptions 
that EPA used in their risk calculation?
    Mr. Keaton. Let me caveat that by saying there was a lot of 
work going on at the time. The Florida Institute of Phosphate 
Research had a program where they were doing mitigation in 
homes, they actually built some homes. Florida and the 
Environmental Protection Agency at that time were developing 
mitigation techniques and eventually that turned into a project 
where new construction was to be used on reclaimed phosphate 
lands.
    What basically these construction techniques do is prevent 
radon--or at least reduce it significantly from getting into 
the home and also lowering through the slab and elevated crawl 
space, lowering the gamma levels that could possibly be in a 
home. So these techniques would be very effective if you were 
to build a home on phosphogypsum or reclaimed phosphate lands.
    Mr. Putnam. Does the Department of Health conduct their own 
risk calculations in the everyday work of your oversight of 
health and safety issues for the State?
    Mr. Keaton. We do when there is an emergency situation, 
when we see major problems. There has been a lot of work that 
has already been done in this area, especially on the workers 
at the phosphate mines. We have looked at areas like the 
Cornet, I am sure you are familiar with that, we have also 
looked at Stouffer Chemical, these areas, and have not yet to 
date found elevated levels.
    As far as an area-wide study on all the people in this 
area; no, that has not been done. But by that same token, we 
have not seen any levels that would indicate that would 
necessarily need to be done.
    Mr. Putnam. But could you please refresh my memory on what 
you found in your health studies of the phosphate workers in 
populations living in the previously mined areas?
    Mr. Keaton. They did not show any increase in lung cancers 
or any health effects. As a matter of fact, there were many 
studies done, there was--I have them here--I mean I do not have 
the studies, but I have the information, if you would like to 
have it.
    Mr. Putnam. We would. Could you please, if you would, tell 
us if you believe the differences in the north and central 
Florida phosphogypsums are significant enough to allow the use 
of one and ban the use of the other?
    Mr. Keaton. Well, there is a radiological difference, but 
we are looking at very low levels of radioactivity. The 
Environmental Protection Agency has done risk assessment on 
that and these are models. OK? You put information in, you get 
information out. If you look at these models and you change the 
parameters that you use, it would seem that from what we have 
seen from the SENES reports that, no, there may not be a 
problem.
    What we would like to see is the EPA and the FIPR come 
together on this and make decisions on what uses and what risks 
are going to be acceptable and we can go from there.
    Mr. Putnam. You know, let me perhaps go to one of our 
scientists. Again, help us understand the difference between 
the north Florida and central Florida in terms of the number of 
picocuries and what that really means in the context of 
atmospheric radiation or just inherent radiation that exists 
today. Give us some context for that, if you would.
    Mr. Chambers. I will try first. I am sure Mr. Lloyd or 
others will correct me.
    I believe north Florida has a radium content in the order 
of 10 picocuries per gram and central Florida phosphate perhaps 
might be 26-27, something like that. So that is about two and a 
half times the radium-226 content. All other factors being 
equal, the rate of release of radon would be proportional to 
the concentration of radium-226. And that is why it is so 
important in looking at these risk assessments, whether it is 
EPA's or ours, to be reasonably conservative but not 
unrealistic or not unreasonable. And I think it was quite clear 
from Dr. Sumner's discussion this morning that there is a 
practical upper limit on the rate at which phosphogypsum might 
be applied, for example, to a farmer's field. And that is, for 
example, a ratio of 2,700 to 900, 2,700 being the upper 95 
percentile as determined by EPA. That is larger than the 
difference in the radium-226 content.
    So basically with any reasonable application rate and even 
following EPA's methodology, there should be no practical 
difference in the risk that would result from radium and radon.
    Mr. Putnam. And Mr. Lloyd, do you or anyone with you have 
any additional information on that as it relates to how that 
compares to other activities that might lead to radiation 
exposure?
    Mr. Chambers. I will come back to that as well. I do not 
have my litany of comparisons in front of me. I think I said 
earlier that at my age, I have a risk of about one in a million 
dying from natural causes during this hearing. In any event, if 
you look at EPA's risk range of 1 in 10,000 lifetime, that is 
approximately equivalent to one in a million risk per year. So 
my 1 hour or 2 hours here from natural causes would be a risk 
of one to two in a million of passing away from natural cause 
during this hearing.
    Similarly, if I was a smoker, and I am happy I am not, 
smoking somewhere between one and two cigarettes, that is all 
it takes, would be the kind of risk that you would get, that 
would result in a risk of one in a million. Similarly, if I was 
flying from Tampa to Colorado to go skiing and return, that 
kind of flight would incur an extra radiation risk in the order 
of one in a million. Here, the extra radiation is from outer 
space from cosmic rays, because as you go up in the air, higher 
in the altitude, the protection from the air from outer space 
cosmic rays is less. So basically a risk of one in a million is 
about the same as my chances of dying, it is about the same as 
a return flight from Tampa to Denver, it is about the same as 
smoking a cigarette or a cigarette and a half.
    Mr. Putnam. A cigarette per year?
    Mr. Chambers. No, one cigarette.
    Mr. Putnam. In your lifetime.
    Mr. Chambers. That is a risk of one in a million.
    Mr. Putnam. Let me see if I can shuck the corn a little bit 
here. [Laughter.]
    Are you saying that if you did stay in a house 18 hours a 
day, 7 days a week for 70 years and if you employ this model 
that EPA has constructed for phosphogypsum, even if you did do 
those things, it is the equivalent exposure to radiation as 
flying from here to Colorado to go snow skiing?
    Mr. Chambers. Plus or minus the uncertainties, I believe 
that is about correct.
    Mr. Putnam. So even if you do employ their maximum risk 
model, you are still talking about negligible risk compared to 
every other normal activity.
    Mr. Chambers. Yes. As I indicated earlier, I feel that yes, 
there is a risk, it is a theoretical risk, but to me it is 
incredibly small and from my perspective, of no consequence 
because you are looking at an annual risk of about one in a 
million which converts to a lifetime risk of 1 in 10,000 and 
that is what we are regulating this industry to.
    Mr. Putnam. Ms. Cotsworth, is that the typical benchmark 
that you all use in promulgating rules?
    Ms. Cotsworth. Basically our decision is consistent with 
the approach that the agency takes in regard to its regulation. 
Our philosophy is that regardless of the background and the 
risks that already exist, that we are required to take action 
to prevent additive additional risk over and above what people 
are already exposed to.
    Mr. Putnam. Additive risk----
    Ms. Cotsworth. Any incremental risk that is within our 
purview, we try to control.
    Mr. Putnam. Any additive risk above 1 in 10,000, greater 
than 1 in 10,000, or any additive risk?
    Ms. Cotsworth. Any additive risk. We look at an excess 
cancer rate of 1 in 10,000 as the basis for possibly 
regulating.
    Mr. Putnam. Is that an internal decision or is that set by 
law?
    Ms. Cotsworth. In regard to, again, radionuclides as a 
hazardous air pollutant, there is a long history regarding the 
Clean Air Act implementation, the so-called benzene rule, court 
decisions that indicate that the agency is appropriate to be 
looking at excess risk in terms of 10 to the minus 6 and 10 to 
the minus 4 range and applying a margin of safety. So that has 
been defended both in court and in other regulatory decisions.
    Mr. Putnam. But you just said that you all attempt to 
control any additive risk, even I assume lesser than that 10 to 
the minus 6.
    Ms. Cotsworth. Right, we actually look at a range of one in 
a million and very often we back off from that to the 1 times 
10 to the minus 4. In some cases, 3 times 10 to the minus 4. 
It's not an absolute hard line but it is generally 1 times 10 
to the minus 4 in our regulatory decisions.
    Mr. Putnam. I am sorry, go ahead.
    Ms. Cotsworth. No, that is fine.
    Mr. Putnam. Do you believe that their research is correct, 
that their findings on the risk are what they say they are?
    Ms. Cotsworth. I would like to have the opportunity to look 
at it more thoroughly and look at the assumptions that were 
used, again, the scenarios to see how the studies and the 
research do compare against the risk assessment methodology 
that we used. It sounds intriguing.
    Mr. Putnam. And if that is the case--well, I think they are 
dying to share it with you. But if it is correct, would that be 
the basis for changing the rule--would that be an adequate 
basis for changing the rule? Is their research adequate or do 
you have to go back to EPA and duplicate their research or do 
you accept them as accredited, certified, legitimate 
researchers?
    Ms. Cotsworth. We would--I would not be able to say yes, we 
would revisit the regulations based on what I have heard today. 
We do not at this point have what we consider to be sufficient 
and compelling reproducible data and information that suggests 
the need to completely overhaul the regulation. We are open to 
receiving data and information and assessing whether it is 
sufficient and adequate. We also encourage people to use the 
petition process that we have already set up. Since the 
regulation development process in the agency probably takes at 
least 5 years, the fact that we have an administrative option 
that is built into the current regulations, the agency has a 
preference, as I believe I stated before, for using the 
administrative procedures that are available to provide the 
flexibility and the relief on a more site-specific or region-
specific, use-specific basis. And therefore not undergoing the 
very long laborious regulatory change process over which there 
is no control as to the outcome.
    Mr. Putnam. Do you have a list of the information that they 
have not submitted or that you believe is insufficient, that 
they could check off. These are the things that EPA 
definitively says they must have? Do you have that?
    Ms. Cotsworth. We have correspondence with certain 
individuals in the record. We are working at the same time as 
we are processing the current petition, Mr. Rosnick, who is 
behind me, is the staff person assigned to that, and he is 
also, by virtue of reviewing that petition, trying to develop a 
quick, easy-to-use, simple guidance, probably no more than a 
fact sheet, that can more readily and clearly indicate what are 
the requirements that we have for, again, a complete 
application, which then can be thoroughly evaluated.
    Mr. Putnam. Is the definition of a complete application a 
moving target? Is that what I am hearing you say, that you are 
trying to put together a fact sheet, but as of now, nobody 
really knows what meets your definition of complete?
    Ms. Cotsworth. The requirements that are in the regulations 
are very limited in their definition. We are trying to provide 
the definitiveness that the petitioners need, and again, based 
on our experience with working with the petitioners, they do 
need additional guidance from us as to what are the elements of 
the petition that are of most concern to us. As we indicated 
last June when we were here, we really want to know about the 
radioactive content and the issues related to that. We want to 
see if there is possibly any monitoring information that could 
be used to evaluate whether there are any other environmental 
hazards posed by the activity, the use or the research.
    I agree it would be ideal if that guidance had been 
prepared some time ago. I cannot tell you why specifically it 
has not been, but it is important enough for me and my 
management team in the Office of Radiation and Indoor Air to 
say that this year, we want to provide our petitioners with 
good guidance so that they can develop a petition that is as 
quickly as possible able to be declared complete and then is 
ripe for that technical evaluation. And we commit to working 
and being in dialog with the petitioners, so again, they can 
clearly understand, as opposed to hearing it from, you know, a 
letter subsequently in terms of additional needs that still 
need to be met.
    Mr. Putnam. So you certify that their application is 
complete and then you have to go evaluate it on its technical 
merits?
    Ms. Cotsworth. Yes.
    Mr. Putnam. And where would you do that analysis? You don't 
have phosphogypsum in your office in Atlanta, you don't have it 
on Pennsylvania Avenue, so what laboratory does that occur in?
    Ms. Cotsworth. It may or may not occur in a laboratory. A 
lot of the review would be actually, again, evaluating and 
reviewing the documentation and the information that has been 
submitted on paper. We probably would want to come and visit 
with the petitioners and see some of the situations that they 
are talking about, we would ask what kind of monitoring data 
they have and can make readily available to us, what kind of 
monitoring information perhaps the State regulatory authorities 
might have. But we do not necessarily use a lab, but we will 
use, again, risk assessment methodologies----
    Mr. Putnam. So if you certify it as complete and after 
visiting with the petitioners, it would be their research that 
you accepted after some review--if you certified it as complete 
and you made that determination, you would not recreate the 
wheel, you would work off of the research that has been done in 
Florida, is that what I am hearing you say?
    Ms. Cotsworth. That is right. And we might suggest some--as 
I believe was alluded to earlier, perhaps some controls, 
institutional controls, that might, in conjunction with the 
data and the science and the information, serve to again ensure 
that there is no unacceptable risk, that the risk is equivalent 
to the risk that the stacks pose right now, and go into our 
decisionmaking.
    Mr. Putnam. The fundamental policy you are working off of, 
correct me if I am wrong, is that the stacks are inherently 
safer than any of the alternative uses proposed.
    Ms. Cotsworth. As of this time, yes.
    Mr. Putnam. And so the standard that the petitioners----
    Ms. Cotsworth. When they are managed in accordance with 
current regulations.
    Mr. Putnam. OK. The standards that the petitioner must then 
rise to is not that the alternative use is safe, but that its 
benefits outweigh the benefits of keeping it stacked up behind 
us here, is that correct?
    Ms. Cotsworth. We look at the benefits. It has to be 
equivalent in terms of the risk. We look at risk to human 
health and the environment and it has to be in a way that we 
can translate to safe and protective of human health and the 
environment, which is no greater than a 1 times 10 to the minus 
4.
    Mr. Putnam. But they have to prove though that it is a 
better use than the being stacked up, not just that it is 
effective and safe in the landfill, not just that it is safe 
and effective in a road bed, not just that it is effective and 
safe as an artificial reef or in a glass container on a rocket 
to Mars. They have to prove that it is better than being 
stacked up, because that is the fundamental policy that you are 
weighing against.
    Ms. Cotsworth. It has to be a use that is beneficial, a use 
for which there is a market, that there is a----
    Mr. Putnam. Or that a market could be created from, whether 
there is an existing market.
    Ms. Cotsworth. Or that we have some reasonable assurance 
that a market could be created for. There are situations in 
regard to other wastes that I am aware of where not all uses 
would be considered beneficial and legitimate.
    But our bottom line is the risk.
    Mr. Putnam. Are you familiar with something called PATHRAE?
    Ms. Cotsworth. It is a model that my office relied on in 
regard to I believe the 1992 and subsequent rulemakings. That 
is as much as I know about PATHRAE.
    Mr. Putnam. So it is the EPA's model for risk assessment, 
or it was at least in 1992.
    Ms. Cotsworth. It is a model I believe. I may be able to 
ask--I know it is cited in this document. I apologize, I cannot 
go technically any further in discussing PATHRAE.
    Mr. Putnam. But it is the model that you used to promulgate 
the rule in 1992, it is the research model that you used, 
correct?
    Ms. Cotsworth. It was used. I cannot tell you whether it 
was the only model or not, but it was used.
    Mr. Putnam. But you used it, so we assume that you would 
accept it, it is a pretty good model if you used it in 1992. 
Has any of this additional research been done using the PATHRAE 
model so that we could compare apples to apples, Dr. Chambers?
    Mr. Chambers. If I might comment. In 1998, it was, I 
believe, we did a very detailed risk assessment for FIPR on 
using phosphogypsum for roads and agriculture. And as a first 
step, we thought we would try and benchmark our models against 
the models used in the 1992 BID and there were in fact two 
models, PATHRAE which is referred to as a multi-media pathways 
model, it takes air and soil ingestion; and I believe in some 
cases EPA complemented the PATHRAE model with a model called 
MicroShield, which is another widely used model for gamma 
radiation.
    I do not have time here, but with some effort, we actually 
had some difficulty in tracking down the actual inputs that EPA 
used, but we were able to, in the end, reproduce their 1992 BID 
results plus or minus a few percent. So as a first step, we did 
reproduce them.
    Then basically, because these models were quite awkward to 
use, we did a screening calculation using other regulatory 
models. We continued to use MicroShield plus also the models by 
NRC which were a bit more advanced at the time and easier to 
use, and for the same inputs, we could benchmark those also to 
the earlier PATHRAE. When we did a screening using the NRC 
models, we again came up with the same conclusions that the 
other pathways were negligible and it was really radon and 
gamma that were the issue.
    So yes, we have been able to test them. We can, with the 
same assumptions, reproduce the EPA's numbers.
    Mr. Putnam. Ms. Cotsworth's concern is that the models that 
are being used in this research may differ from EPA or may make 
certain assumptions that would not be the assumptions that they 
would make if they were running the same risk calculation. I am 
paraphrasing you, but what have you done in your research to 
ensure that it is something that the EPA would accept, that the 
models are credible, that they are using the right assumptions 
and that it is good science?
    Mr. Chambers. There is a whole history to this. As I 
mentioned before, we were able to benchmark our model. By 
benchmark, I mean get the same results for the same inputs to 
the EPA's models. And then to move forward, we did more than 
EPA with regard to pulling together information that is 
relevant to the situation in Florida for the soil application 
rates, road construction methods, house construction methods, 
indoor radon as it relates to soil radium-226 levels. And this 
is actually based on data that is documented in our report. I 
quite strongly believe that if we had the opportunity, we could 
convince EPA quite readily that our models were reasonable. It 
might be more difficult to convince them that our assumptions 
are appropriate; for example, the 70-year residency and this 
kind of thing.
    However, I would like one final comment, to add that there 
is an inconsistency within even the radiation side of things 
between 70 years and 30 years, but also between Office of 
Radiation Programs and Office of Solid Waste. As I mentioned 
earlier, in 1999, when EPA did an examination of potential 
hazards from using fertilizer, they actually used a farm 
residency of 17 to 18 years, which is yet a different number.
    So I think--I believe we can demonstrate good science 
behind our models and indeed EPA is moving toward the kind of 
modeling that we did, which uses Monte Carlo calculations to 
take account of uncertainties and I think EPA is moving in that 
direction. I think where the bigger challenge might be is 
arguing or discussing what the appropriate assumptions are, and 
residency, for example, is one of them.
    Mr. Putnam. So could you please clarify again what you do 
for the United Nations? That was in your biography, about the 
UNSCEARs?
    Mr. Chambers. The UNSCEAR is the United Nations Scientific 
Committee on the Effects of Atomic Radiation was created in 
about 1955 by the United Nations, and I believe there are 26 
countries, could be 27 including the United States and Canada 
and Britain and Germany and Russia and Japan and China, etc. 
And the responsibility of this group is to periodically--
typically every 4 to 5 years--review all of the new verified, 
published, refereed research on the occurrence of radioactivity 
in the environment, and most importantly the health effects. 
This includes dosimetry and epidemiology. These documents are 
produced every 4 to 5 years and are used and referred to 
frequently by the U.S. National Council on Radiological 
Protection, by the U.S. EPA for that matter, by the 
International Commission on Radiological Protection, to whom 
the EPA often refers.
    And it is an honor, but it is an agony. Consultant is 
basically volunteer time and my task right now is to revise, 
actually write the next UNSCEAR report on radon health effects.
    Mr. Putnam. So we are not talking about some fly by-night 
backyard outfit here, we are working for the United Nations. 
And coming from the Congress, that can be sort of a frustrating 
group to work with, so you are to be commended for doing it.
    But the models that you have developed, the work that you 
have done is often referred to by EPA, is that what I heard you 
say?
    Mr. Chambers. The kinds of models that we have used, which 
include Monte Carlo calculations, which take account of 
uncertainty, have very much been used by EPA, and EPA I believe 
is moving more toward more routine use of these models because 
I am different than my colleague beside me, I may eat more, I 
am bigger, I may breathe more, and these models allow you to 
actually take account of difference in breathing rates and 
weight and this kind of thing. And it is the state-of-the-art 
that we have in modeling today.
    Mr. Putnam. Thank you. The Tampa Bay Estuary Program 
coordinated a conference call for the EPA with more than 30 
marine scientists to review the Piney Point situation that 
resulted in a unanimous consensus for the Gulf discharge plan. 
If we had heavy rains, if we had another Piney Point situation 
occur, would the Estuary Program support a similar decision and 
in reviewing that situation, what were the program's 
recommendations for ways to avoid a similar situation in the 
future?
    Mr. Eckenrod. The request from EPA was whether or not the 
group of experts that we convened believed there was greater 
risk in disposing of a portion of that accumulated and 
partially treated wastewater offshore versus continuing to 
discharge into Tampa Bay. We consulted with marine experts from 
around the Gulf, experts in harmful algae blooms in particular, 
and the consensus of that group was that there was less risk in 
moving that water offshore than there was allowing that 
continued accumulation of that water in the stacks at Piney 
Point, or alternatively, discharging it into Tampa Bay. Both of 
those were options.
    There was no--I think the groups that I have been working 
with and the Estuary Program has been working with, and that 
includes the Agency on Bay Management in Tampa Bay, we all, you 
know, share the belief that we need to take every reasonable 
measure possible to avoid occurrences like Piney Point in the 
future. And that is part of the reason I was interested in 
participating in this hearing today, to share that concern and 
encourage this group to pursue, and EPA to actively pursue 
these beneficial uses of phosphogypsum to the extent that it 
can help reduce risk like Piney Point in the future.
    Mr. Putnam. From your perspective, do you believe that the 
environmental risk associated with stacks is greater than the 
risk of dispersing the stacks throughout the State amongst the 
alternative uses that have been illustrated, is it a greater 
risk to leave them stacked up?
    Mr. Eckenrod. Well, it is a difficult question for me to 
answer, not being an expert in radiation and obviously there 
are many people that have spoken today who do have that 
expertise. I can only say, Congressman, that based on the 
testimony I have heard, there is certainly expressed many 
potential uses of phosphogypsum that offer the hope that the 
risk would be--by making use of those opportunities, the risk 
could be reduced below what the current technology provides 
for; that is, stacking it.
    Mr. Putnam. Dr. Sumner, do you wish to add anything to what 
we have heard in terms of the models that have been used and 
the work that you have done and others have done and this 
acceptability to the EPA?
    Mr. Sumner. Mr. Chairman, I have been in this game for 45 
years and I have had all the research work I have ever done 
reviewed by my peers, and I find it is an insult to hear that 
any of the research that I am accredited in my report or that I 
might have done myself is suspect. Scientists work according to 
given rules and our science is the best available.
    So in my report, there is no fiction. This is the fact of 
the matter as we know it today. There might be some holes in 
it, we do not know, but those are facts. I want to say that 
first.
    Second, I want to interject a little bit of common sense 
into this discussion here today, Mr. Chairman. In the old days, 
we used to use single super phosphate, which was composed of 
calcium dihydrogen phosphate and calcium sulfate, gypsum, in a 
50/50 mix roughly, roughly 50/50. So in the old days, if the 
engineers had not got to us and decided we needed high analysis 
fertilizers to cut down on transportation costs, we would still 
be spreading single super phosphate all over the country. And 
if we did that at the rate that is recommended, and this would 
be the low rate that is recommended, at about 30 pounds per 
acre per year, we would be spreading 120 pounds of gypsum and 
that would be Florida gypsum full of radiation probably on 
every acre of agricultural soil, definitely east of the 
Mississippi and probably some distance west of the Mississippi. 
And we would have been doing that now for more than 100 years 
and we would have far exceeded the 2,700 pounds that the EPA 
has used and I venture to say right now that the EPA would not 
have had the temerity to ban single super phosphate.
    Thank you, Mr. Chairman.
    Mr. Putnam. Mr. Lloyd, your comments at this stage in the 
game?
    Mr. Lloyd. I would like to correct one thing that was said. 
Ms. Cotsworth made the comment that the concentration was 
increased in phosphogypsum. The concentration of radioactivity 
is actually reduced in phosphogypsum.
    I would like to receive the documentation that she had 
mentioned that says they had checked out building roads with 10 
picocurie phosphogypsum. If that is in any of the BID 
documents, I cannot find it. Doug, were you ever able to find 
it, using 10 picocuries for road building?
    Dr. Chambers. I did not see their analysis--I cannot recall 
seeing their analysis of 10 picocuries per gram.
    Mr. Lloyd. So I would like to see that.
    The one thing that might be interesting to you as a 
Congressman, in the 1989 rule, the public participation never 
discussed banning phosphogypsum. That part was not part of the 
discussion or the rule. And I would appreciate this easy-to-use 
guidance. We asked for it back in 1995. I would think 19 years 
is a long time to get it done.
    Mr. Putnam. Ms. Cotsworth, could you provide to the 
subcommittee the background information, the studies on road 
building using to 10 picocurie per gram material for north 
Florida?
    Ms. Cotsworth. Just a minor correction. I indicated that we 
did studies that suggested that a national generic permission 
for use as road building material was not supported in terms of 
risk. I do not believe I used the term 10 picocuries per gram 
in regard to that specific reference.
    In the BID documents, as requested, the specific reference 
is to an investigator by the name of Roffler, Gamma radiation 
and radon flux from roads constructed with bases having 
phosphogypsum-bearing aggregate, from the University of 
Florida, 1987. And the information is contained, I believe, on 
pages 426 and 427. That is the information that the staff at 
that point used.
    Mr. Putnam. Thank you.
    The real crux of all this is that it is the opinion of--and 
I believe the adopted policy of at least this county that 
finding a viable economic use for these stacks is our goal. And 
the State of Florida has invested, through the Department of 
Education and with substantial support from the private sector, 
in the Florida Institute of Phosphate Research, as well as the 
other academic studies that have gone on, to find a use for 
this product.
    I am hopeful that this hearing will have communicated to 
the EPA our interest in allowing research to go forward that 
would provide us some guidance for alternative use of this 
product. It has bubbled under the surface for years and has 
been something that people talk about when they drive down 
Highway 60 and they see them. But it has reached an important 
sense of urgency as a result of the events of last summer and 
the discharge that had to occur, that highlights the potential 
risk that storing these stacks poses. I think it is tragic that 
legitimate, accredited, highly thought of researchers have a 
difficult time interacting with their government and finding a 
way to share research that has the potential for public 
benefit. And that has transcended Republican administrations, 
Democrat administrations. It is a culture issue at EPA that has 
absolutely nothing to do with who is in charge, because the 
same people are in those offices in Atlanta and at the mid 
level and everything else that make these decisions.
    So I would hope that as a result of this hearing, which may 
just be the second of several if need be, that we would 
facilitate a better information transfer, that we could have 
some objective, some goal line of knowing what the definition 
of a complete application is so that process can move forward 
and the people of Polk County, people of Florida and the 
potential new industries that could come from alternative uses 
and the potential savings that could accrue in terms of road 
building or land fill management would be able to have some 
guidance. And that guidance, that progress, has been lacking. 
And it has been, I think very frustrating for an awful lot of 
people.
    So, you know, I would hope that we would get the 
information that we have requested, that we can facilitate the 
meetings that you have committed to and, frankly, I think 
expand it certainly to include my office and your water office, 
we will make that communication as well, because I think 
something that has come forward today is that there clearly has 
to be a conflict of environmental goals between your water 
office and your air quality office when your water office is 
sent to respond to an emergency created by the concentration of 
phosphogypsum in stacks and the water that is held as a result 
of rainfall and everything else. So I think that is an 
important component to this as well. And I invite you to 
respond.
    Ms. Cotsworth. I want to make this petition process work 
for both the agency and the petitioners. And I have made it a 
priority since I have become the office director to both 
clearly respond to and process the current petition that we 
have in-house, and to issue the guidance that petitioners have 
been crying for. I also believe that I personally have a 
reputation for being someone who deals honestly and openly and 
is accessible to members of the regulated community as well as 
the rest of the public. And I am interested in making sure 
that--the bottom line is that the decisions that we make are 
clear and transparent, but also publicly and technically and 
scientifically defensible.
    So I will certainly be willing to work with your office and 
the other people at this table. I know science has progressed, 
there have been changes in the agency since 1989 and the 1992 
regulations. There has also been culture changes within the 
agency. But I will be glad to work with the petitioners, your 
office, our fellow regulatory agencies and others in regard to 
this issue.
    Mr. Putnam. Thank you very much.
    How many other issues are in your portfolio that involve 
this type of history with a State-sponsored research laboratory 
who has been specifically charged with investigating the use of 
a product that you regulate and has that kind of 19-year 
tradition of trying to move this along. Is that a fairly common 
thing?
    Ms. Cotsworth. No, it is fairly unique.
    Mr. Putnam. In most agencies or departments, you would 
assume in life that when you have sort of a small universe of 
players and one of them has been around since day one and are 
legitimate, you know, they are not--you know, being in the 
constituent service business, we all understand that sometimes 
folks come to the table bearing more research and more facts 
and have the credentials to back those up. It would seem that a 
better relationship would have just naturally developed over 
time, knowing that there is a whole building out here full of 
laboratories working to do nothing but find a better use for 
phosphogypsum, and it just seems odd that it has degenerated 
into sort of an adversarial thing instead of really a committed 
partnership to find a better use.
    I take you at your word and hope that today marks a turning 
point and a move toward progress toward working to resolve 
these issues.
    I also just wanted to ask if there were, as part of the 
Clean Air Act reauthorization, if there were a legislative 
change that affected the regulation of phosphogypsum that would 
allow for the use in these instances--road beds and landfills 
as well as a couple of the other things that we talked about, 
the glass and the marine life--would you lay awake at night 
worried about public health and the impact that might have on 
the population?
    Ms. Cotsworth. It is inappropriate for me to comment on the 
possibility of legislative changes. Again, we will be glad to 
work with you or whomever on the Hill in regard to technical 
evaluation, give you our best technical and scientific input 
for you to use in making your tough decisions relative to 
legislation and then we will implement them appropriately.
    Mr. Putnam. Thank you.
    Mr. Keaton, would you like to add anything?
    Mr. Keaton. Well, I guess in listening to everything that 
has been said, I think one thing that maybe we ought to point 
out here is that the doses and the risks that we have been 
talking about are calculated. These are numbers and models that 
we use to work with. There is real risk involved with hazards 
with this material getting into the environment as far as a dam 
breaking or things along these lines. So there are risks there 
that have to be balanced and I guess the EPA and the people 
have to deal with that.
    What we do, what we would welcome is that the unfettered 
research and development of these products and these techniques 
in using this material, we welcome them and would work to help 
do that.
    Mr. Putnam. Thank you. Mr. Eckenrod.
    Mr. Eckenrod. You may have heard me shudder a little bit at 
the discussion earlier about some of the potential marine uses 
of phosphogypsum. I think we do need to think very carefully, 
as we would about any potential uses on the environmental 
effects of those. But it looks to me like--and I go back to 
what Mike Lloyd said earlier--that in the past when FIPR has 
talked to EPA, it has been constructive, they have made 
progress. So to the extent that this hearing can help get that 
constructive dialog back on track, I think it will be very 
successful.
    Mr. Putnam. Thank you very much. Mr. Lloyd. Dr. Sumner. Dr. 
Chambers.
    Mr. Chambers. Just a very brief comment. I would like to 
correct something as well.
    There was in fact a detailed radiological assessment 
submitted along with the petition and so someplace in EPA 
files, there is information on radioactivity and potential 
radiological risks associated with it.
    Other than that, when we submitted these, we tried to write 
them in a form, we sat down and asked ourselves a question if 
we were EPA, what kind of information would we like. So it may 
not be quite right, but we did make an attempt to make it easy. 
So we are hoping that EPA considers the work that we did in 
submitting the application when they come up with their 
guidelines.
    Thank you very much.
    Mr. Putnam. Thank you. Dr. Shieh.
    Mr. Shieh. I would like to make a final comment. It seems 
to me the whole process looks at the project as a full scale 
operation, but it is not. It is still just one study and the 
finding of that study will provide solutions for big scale 
application. So a lot of effort has been put to me, it seems 
not in the right direction--a lot of effort we are doing today 
may not be necessary. So I want to ask again, please do not 
treat this project as a full scale application request, this is 
just one study to demonstrate if this idea is feasible or not 
feasible.
    Mr. Putnam. Especially the phase III request, right?
    Mr. Shieh. Yes, yes, yes.
    Mr. Putnam. Well, I want to thank all of our distinguished 
panelists for their contribution to our understanding of this 
issue and the potentially beneficial uses as well as the risks 
that have to be balanced in using phosphogypsum for purposes 
other than stacking. It is necessary to reconsider the 
calculations that determine the commercial product or waste, in 
my view. We have a number of studies that suggest that it would 
be advantageous to everyone as well as environmentally 
sustainable to revise the EPA ban of phosphogypsum in research 
and in industry.
    Certainly as was the case in the event there are additional 
questions we did not have time for today, the record will 
remain open for 2 weeks for submitted questions and answers. I 
believe that the subcommittee has put forward a number of 
information requests that we expect to be answered promptly, 
and we certainly appreciate the efforts that everyone has put 
into this.
    I would note also for the record that the Florida Institute 
of Phosphate Research is within walking distance of this 
facility and I suspect if we want to use this as an opportunity 
to put our panelists together, I believe Mr. Lloyd might answer 
this correctly--available for all of our panelists to huddle up 
and talk about exactly what some of the issues are and how we 
can resolve this and make the application complete and move 
forward in a thoughtful, science-based manner.
    So with that, I want to thank the audience for attending as 
well, I think your interest certainly demonstrates community 
involvement and a community interest in seeing this move 
forward in a productive and fruitful way. And the subcommittee 
stands adjourned.
    [Whereupon, at 1:19 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5739.045

                                 <all>

</pre></body></html>
